<html>
<title> - PARKS AND PUBLIC LANDS BILLS</title>
<body><pre>[Senate Hearing 111-721]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-721

                      PARKS AND PUBLIC LANDS BILLS

=======================================================================

                             JOINT HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                AND THE

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 3261                               S. 3283                           S. 3291                               S. 3524                           S. 3565                               S. 3612 
                           S. 3616                               S. 3744 
                           S. 3778                               S. 3820 
                           S. 3822                               H.R. 1858 
                           H.R. 4773 

                                     

                               __________

                           SEPTEMBER 29, 2010




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                       Printed for the use of the
               Committee on Energy and Natural Resources





                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  62-567 PDF               WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>  









               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BLANCHE L. LINCOLN, Arkansas         JOHN McCAIN, Arizona
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   BOB CORKER, Tennessee
DEBBIE STABENOW, Michigan
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                             Subcommittees










                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Begich, Hon. Mark, U.S. Senator From Alaska......................     4
Burr, Hon. Richard. U.S. Senator From North Carolina.............     3
McCain, Hon. John, U.S. Senator From Arizona.....................    24
Sanders, Hon. Bernie, U.S. Senator From Vermont..................     6
Schutt, Aaron, Senior Vice President and Chief Operating Officer, 
  Doyon, Limited, Fairbanks, AK..................................    22
Smith, Gregory C., Director of Lands, Forest Service, Department 
  of Agriculture.................................................    18
Stevenson, Katherine H., Associate Director, Business Services, 
  National Park Service, Department of the Interior; Accompanied 
  by Timothy R. Spisak, Acting Assistant Director, Minerals and 
  Realty Management, Bureau of Land Management...................     7
Udall, Hon. Mark, U.S. Senator from Colorado.....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    31

                              Appendix II

Additional material submitted for the record.....................    35

 
                      PARKS AND PUBLIC LANDS BILLS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 29, 2010

                               U.S. Senate,
Subcommittee on National Parks and Subcommittee on 
                          Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2:31 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order.
    Welcome, everybody.
    This afternoon the Subcommittee on National Parks and the 
Subcommittee on Public Lands and Forests are holding a joint 
hearing to consider several pending bills. The purpose of the 
hearing is to get testimony for the record on as many bills as 
possible before the Senate adjourns this week, maybe even 
today.
    Because we have over a dozen bills on the agenda, I will 
not read through the list of bills, but at this time I will 
include the complete list of bills in the hearing record.
    The committee has received a statement from Senator 
Hutchison relating to 2 bills involving areas in Texas: the 
proposed Buffalo Bayou National Heritage Area and the San 
Antonio Missions National Historical Park. Without objection, 
her statement on those bills will be included in the hearing 
record, along with several other written statements that the 
committee has received. We will, of course, also include any 
additional statements submitted for the record.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator From 
                                 Texas
    I want to thank Chairman Bingaman and Ranking Member Murkowski of 
the Senate Energy and Natural Resources Committee for holding today's 
joint hearing between the Subcommittee on National Parks and 
Subcommittee on Public Lands and Forests to consider the lands bills 
important to so many regions of the country. Two bills in particular, 
S. 3261, the Buffalo Bayou National Heritage Area Act and S. 3524, the 
San Antonio Missions National Historical Park Boundary Expansion Act of 
2010, are of interest to many of my constituents.
    The first bill, S. 3261, the Buffalo Bayou National Heritage Area 
Act, would designate the Buffalo Bayou as a National Heritage Area. The 
Buffalo Bayou became important in Texas' history when, during the 
Battle of San Jacinto, the final battle for Texas Independence was 
fought along its banks. It was during this battle that General Sam 
Houston led the Texas Army against General Antonio L"pez de Santa 
Anna's Mexican forces, to win its independence from Mexico in 1836.
    The Buffalo Bayou has become a major economic access point into the 
Southwest and beyond. Today, the 52-mile stretch of the Buffalo Bayou 
is the nation's number one port in foreign cargo and one of the largest 
ports in the world. The Buffalo Bayou's complex of petrochemical plants 
employs over 35,000 people. Oil and gas refining along the bayou 
remains the foundation of Houston's economy, providing 13 percent of 
the nation's refining capacity.
    In 2002, Congressman Gene Green and I introduced the Buffalo Bayou 
National Heritage Study Act which required the National Park Service 
(NPS) to study the area to determine if the Buffalo Bayou was eligible 
for designation. The NPS report describes the Buffalo Bayou as an 
important artery currently supporting oil refining, petrochemical 
production, and commercial trade. The Buffalo Bayou also sustains the 
growth of Baytown and the development of Houston's economic powerhouses 
of energy and petrochemical industries.
    While conducting public hearings on the designation of the Buffalo 
Bayou, the common themes voiced by interested parties were that the 
historical events and growth of the oil industry along the banks of the 
Buffalo Bayou are critical to understanding the rise of the United 
States as a modern industrial giant. The Buffalo Bayou has a great 
history to preserve and could continue providing economic development 
opportunities for the Houston area.
    The NPS's report concluded that Buffalo Bayou is eligible and would 
benefit from the designation. I fully agree with the NPS's analysis of 
the Buffalo Bayou, and that is why I introduced S. 3261, the Buffalo 
Bayou National Heritage Area Act, to designate the Buffalo Bayou for 
National Heritage Area designation. My legislation is a companion bill 
to a bill sponsored by Congressman Gene Green, who has been a champion 
for this important region of Texas to receive the designation it 
deserves.
    The second bill being considered today, also important to Texas, is 
S. 3524, the San Antonio Missions National Historical Park Boundary 
Expansion Act of 2010, which would authorize a boundary study that 
would identify possible lands for inclusion in the park within Bexar 
and Wilson Counties. Condemnation language was added during House 
markup so as to protect the rights of private property owners.
    The City of San Antonio is the second-largest city in the State of 
Texas and the seventh-largest city in the United States; however, it is 
important to consider how the San Antonio Missions played an important 
role in San Antonio's history. The San Antonio Missions National 
Historical Park commemorates an important chapter in the history of the 
United States and represents the largest concentration of historical 
Catholic missions in North America. The park also features some of the 
most effectively maintained Spanish colonial architecture in the United 
States. Its rich history must be preserved for future generations to 
enjoy.
    During the 1700s, Spain greatly influenced the San Antonio area. As 
Spanish explorers travelled through what is modern-day Texas, Catholic 
missionaries and soldiers accompanied the group and established the 
missions and forts we now benefit from in the San Antonio Missions 
National Historical Park. The missions and forts were originally 
established to protect Spanish land claims from the French in 
Louisiana. The missions and forts were also important to Spain in order 
to spread their influence and recruit new citizens for Spain's 
expanding empire. The San Antonio Missions National Historical Park 
preserves four of the five Spanish frontier missions and offers 
visitors an opportunity to learn about the historical importance that 
the area played in vocational and educational training during the 
1700s.
    My colleague and fellow Texan, Congressman Circo Rodriguez, 
introduced H.R. 4438, the San Antonio Missions National Historical Park 
Boundary Expansion Act of 2010, which passed the House of 
Representatives on July 13, 2010. I was pleased to introduce a Senate 
companion to Congressman Rodriguez's legislation. Our legislation 
enjoys the strong support of officials from Bexar County, Wilson 
County, the City of San Antonio, the City of Floresville, the San 
Antonio River Authority, the San Antonio Conservation Society, Los 
Compadres, and others. This bill would help guarantee the preservation, 
protection, restoration, and interpretation of the missions for current 
and future generations.
    Chairman Bingaman and Ranking Member Murkowski, I believe today's 
hearing will give the committee a better understanding of why these 
regions are important to our nation's history, and why legislation is 
needed to preserve the Buffalo Bayou Heritage Area and the San Antonio 
Missions. I thank you for your attention to these two pieces of 
legislation.
    Thank you.

    Senator Udall. I would like to briefly comment on H.R. 
1858, which is of particular interest to Senator Bennett and 
myself. Representative Markey introduced H.R. 1858 to resolve 
what has been a very difficult issue for a number of homeowners 
in the Crystal Lakes Subdivision in northern Colorado.
    In 2004, the Bureau of Land Management determined that a 
developer's 1976 private survey erroneously included 
approximately 7 acres of National Forest land within the 
boundary of the subdivision. As a result, we have a number of 
homeowners who, through no fault of their own, are faced with 
the prospect of losing their property or being forced to pay 
for it a second time. The homeowners have been living under 
this cloud on their title for too long, so I hope our hearing 
today will help us get closer to a resolution for them.
    With that, I would like to recognize the ranking member, 
Senator Burr, from North Carolina for any opening statement he 
may have.

         STATEMENT OF HON. RICHARD BURR, U.S. SENATOR 
                      FROM NORTH CAROLINA

    Senator Burr. Good afternoon, Mr. Chairman. I would like to 
thank you for convening this hearing before the National Parks 
Subcommittee and the Public Lands and Forests Subcommittee, 
which is likely to be our final subcommittee hearing of the 
year.
    I would like to take a moment to acknowledge my gratitude 
of the chairman for the way he has conducted the business of 
the subcommittee. We have had another productive year, 
regularly hearing a large number of bills. I know all members 
of the subcommittee appreciate your leadership in addressing 
their bills in a timely manner. I have enjoyed working with you 
this Congress, and I look forward to continuing to work with 
you in the future on this subcommittee, as well as the full 
committee.
    This is a very unique hearing, given that it is a joint 
hearing between Public Lands and Forests. We have 12 total 
bills on the agenda, 7 of which are the National Parks bills. I 
will keep my comments directed toward the National Parks bill 
before us and will defer to my colleague, Senator Barrasso, 
anything he would like to address on the Public Lands and 
Forests bill before us today.
    The National Parks bills today are generally 
noncontroversial, which I think the chairman has always used as 
a threshold.
    But I would like to express a general concern that I have 
for the establishment of a new national park unit, and I say 
this while at a time we are challenged to meet the maintenance 
backlog of our current park inventory. I question the wisdom of 
creating new park units when we cannot pay for what the Federal 
Government already possesses. I am not going tell you that it 
is impossible, but I believe at a time of the fiscal austerity 
that I think we all know we are either in or headed for, our 
first commitment has to be to make sure that we take care of 
the treasures that we have been entrusted with up to this 
point, and though the merits of this and many things in the 
future, short-term, may reach the threshold that has been 
achieved in the past, I think that members of this subcommittee 
and members of the full Senate should make sure that we have 
taken care of the obligation we have got to maintain those 
treasures we have been entrusted with.
    So, Mr. Chairman, again I thank you for the hearing. I 
appreciate the Department witnesses for taking the time to be 
here. I look forward to their testimony.
    Senator Udall. I thank, Senator Burr, for expressing what 
are legitimate concerns. I take those concerns very seriously 
and look forward to working, hopefully, with you starting again 
in January when the Senate reconvenes. We are a continuing 
body, so we do not permanently adjourn I guess, but we will be 
back working together starting next year, in what capacity we 
will see. I too have enjoyed very much working with you. Thank 
you for your leadership and for your staff's support and my 
staff's efforts. Next year we will be just as productive, I am 
sure. Thank you.
    We have been joined by our colleague from Alaska, Senator 
Begich. Senator Begich, thank you for taking time to join the 
subcommittee--the joint subcommittee hearing I should say.
    I know the ranking member mentioned both Chairman Wyden and 
Ranking Member Barrasso. They both, obviously, have signed off 
on holding this joint hearing. I do not know if they are going 
to be able to join us or not. They have got busy schedules.
    But, Senator Begich, thank you for joining us. The floor is 
yours.

          STATEMENT OF HON. MARK BEGICH, U.S. SENATOR 
                          FROM ALASKA

    Senator Begich. Thank you very much. Thank you, Chairman 
Udall and Senator Burr, for allowing me a few minutes.
    First, before I give you just some comments regarding S. 
3820, I want to just give some update. As you know, in Alaska, 
we have very rugged country and 3 Park Service employees went 
missing in a plane crash or a plane disappearance over 5 weeks 
ago with no sign of recovery at this point. But I was informed 
last night that there seems to be a helicopter in King Salmon 
area that has found some part of the wreckage which is good 
news, but bad news at the same time. But I wanted to at least 
share that as we are talking about Park Service issues in 
Alaska. As someone from a family that never has been able to 
recover my father's lost plane, this is an incredible positive, 
but yet sad day for the families. But the good news is there 
seems to be a possibility of recovery of the wreckage. So I 
will leave it at that.
    But I wanted to thank you for the opportunity to speak on 
S. 3820, and I appreciate the opportunity to address the 
committee today on a very small but important bill to Alaska.
    I understand you have a dozen or so bills in front of you, 
so I will try to keep my comments brief. But this is on the 
Kantishna Hills Renewable Energy Act of 2010. It is a 
noncontroversial bill that accomplishes several important 
goals. It allows the National Park Service to acquire an 
important private inholding inside the preserve or a new park, 
part of the Denali National Park and Preserve. It enables 
Kantishna Roadhouse, an historic back country lodge owned by 
Doyon Ltd. that is not connected to any utility grid to 
construct a microhydro project and reduce their diesel usage by 
over 50 percent. It provides direction for the National Park 
Service to issue the interim special use permit for the project 
so that Doyon can realize a Department of Energy tribal energy 
grant award while the land trade is moving forward.
    The interim special use permit was suggested by the 
National Park Service, Alaska region's staff, while discussing 
draft legislation. I think it is an example of the cooperative 
spirit you will find that surrounds this legislation.
    The Park Service has worked well with Doyon, my office, and 
that of Senator Murkowski who worked on drafting the 
legislation. I want to thank them for their assistance.
    At the end of the day, the microhydro project will reduce 
the Kantishna Roadhouse diesel consumption. This means better 
air quality for the park, fewer truck trips on the single park 
road, and better experience for all park visitors, and a better 
bottom line for the Kantishna Roadhouse.
    I know when people hear the word ``development'' inside a 
national park, particularly one of the jewels of the system 
like Denali National Park, people pay attention. It is 
important to note for the record that this project would take 
place in a nonwilderness part of the park. The affected stream, 
Eureka Creek, is not a fish-bearing creek. The Kantishna 
community began as a gold-mining town and the stream has been 
actively mined in the past 20 years. Because of this history 
and because of the nature of the project, my office has heard 
no opposition to the project or this legislation.
    With that, let me say thank you for taking the time to take 
up this legislation on such short notice, and please, if you 
have any questions, I am happy to answer them. Thank you, Mr. 
Chairman.
    Senator Udall. The ranking member does not have any 
questions.
    Senator Begich, would you like to introduce a witness who 
is going to join the next panel from Alaska?
    Senator Begich. I am not sure who is here because I came in 
at the last minute.
    Senator Udall. I do not know if Mr. Schutt is here. Is he 
here?
    Senator Begich. I walked right past him. I apologize.
    We are happy when Alaskans travel this long distance, and 
Mr. Schutt will be on the next panel and I know will add to the 
discussion. So we just appreciate that he is here.
    Senator Udall. Thank you for your testimony. I know that 
the whole world of microhydro power is really beginning to open 
up. In Colorado, we have a series of permit requests under 
process. So I am intrigued to learn more about this, and it 
sounds to me like the benefits are significant and this is well 
worth supporting. So thank you for taking the time for working 
with Senator Murkowski.
    Senator Begich. Thank you. I will tell you, especially 
diesel energy in Alaska, when you are in the interior, it can 
range anywhere from $5 to $6 a gallon to as much as $11 a 
gallon. So when you can convert to hydro, there is an economic 
benefit and then obviously an environmental air quality 
benefit. So we like bills that are on land in Alaska that are 
noncontroversial, and this is one of them. So thank you, Mr. 
Chairman.
    Senator Udall. Senator Burr and I are both very proud of 
our mountains. Alaska has significant mountains as well.
    Senator Begich. I will leave at that comment because we 
will get into a competition of our size of mountains.
    [Laughter.]
    Senator Begich. Thank you very much.
    Senator Udall. Thank you, Senator Begich.
    As Senator Begich leaves, we have two panels planned, but I 
think we could ask both the administration witnesses and Mr. 
Schutt to come forward, and we will have all three of you join 
us and provide us with your statements.
    Senator Sanders has joined us. As the panelists get 
situated, do you have any statement?
    Senator Sanders. I have a short statement.
    Senator Udall. Please. The floor is yours.

        STATEMENT OF HON. BERNIE SANDERS, U.S. SENATOR 
                          FROM VERMONT

    Senator Sanders. Thank you very much, Mr. Chairman. I will 
be brief.
    Today I am pleased our hearing is focusing in part on S. 
3612, a bill I introduced with Senator Leahy to expand the 
Marsh-Billings-Rockefeller National Historical Park. The bill 
would provide authority for the national park to acquire the 
King Farm property in Woodstock, Vermont, which is currently 
held by the Vermont Land Trust. The King Farm property is a 
classic 19th century Vermont Hill Farm with many original 
buildings intact. It includes 154 acres of farm and forestland 
and was left to the Vermont Land Trust by Francisca King Thomas 
in 1986 under the provisions of her will. At the time, the Land 
Trust was a regional organization but has since grown and now 
operates statewide.
    This change has made it more difficult for the Land Trust 
to manage the property. The Vermont Land Trust has conducted a 
thorough outreach effort with local stakeholders to determine 
the future of the property. It was through this process that 
the idea of making King Farm part of the national park came 
about. As Gil Livingston, the president of the Vermont Land 
Trust, notes in his written testimony for the record, ``We 
believe that this proposal not only furthers the educational 
and conservation mission of the Marsh-Billings-Rockefeller 
National Historical Park and the Vermont Land Trust, but will 
honor and fulfill the goals and legacy of Francisca King 
Thomas.'' End of quote. The legislation will ensure that King 
Farm remains conserved working land, that its historic 
buildings are well cared for, and that the property provides a 
valuable opportunity for education for visitors and the 
community.
    I thank the National Park Service for their support of this 
legislation as indicated in the testimony today by Kate 
Stevenson.
    I also appreciate the great work of Vermont Land Trust, the 
staff of the Marsh-Billings-Rockefeller National Historical 
Park and the residents of the local communities. It is the 
vision of the local communities that surround King Farm and the 
national park that this legislation carries out, and I look 
forward to working with my colleagues to ensure this 
legislation can move forward.
    Mr. Chairman, thank you very much for allowing me the 
minute.
    Senator Udall. Thank you, Senator Sanders, for sharing 
those perspectives.
    We will now turn to the panel. I think we will start with 
Ms. Stevenson, and Ms. Stevenson we know, because she appears 
before this committee at various interludes, is the Associate 
Director of Business Services, National Park Service, 
Department of the Interior. Thank you for being here with us 
today. The floor is yours. If you will keep your remarks within 
the 5-minute timeframe, I know that would be appropriate. So 
thank you.

   STATEMENT OF KATHERINE H. STEVENSON, ASSOCIATE DIRECTOR, 
  BUSINESS SERVICES, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
 INTERIOR; ACCOMPANIED BY TIMOTHY R. SPISAK, ACTING ASSISTANT 
   DIRECTOR, MINERALS AND REALTY MANAGEMENT, BUREAU OF LAND 
                           MANAGEMENT

    Ms. Stevenson. Thank you for the opportunity to appear 
before you today to offer the views of the department on the 
bills before you.
    If I may, I would like to summarize my comments and ask 
that the full text be entered into the record.
    Senator Udall. Without objection.
    Ms. Stevenson. Tim Spisak, the Acting Assistant Director 
for Minerals and Realty Management for the Bureau of Land 
Management, is accompanying me today and will be happy to 
answer any questions you might have on the two BLM-related 
bills.
    S. 3261 would establish the Buffalo Bayou National Heritage 
Area in Harris County, Texas. The Department recognizes the 
appropriateness of designating the heritage area but recommends 
deferring action until program legislation for heritage areas 
can be enacted.
    S. 3291 would establish Coltsville National Historic Park 
in Hartford, Connecticut. The Department does not support 
enactment due to the uncertainty associated with the ownership 
and financial sustainability of the Coltsville Development 
Project and because of the lack of clarity on what resources 
the National Park Service would manage.
    S. 3524 would authorize the Secretary to enter into a 
cooperative agreement for a park headquarters at San Antonio 
Missions National Historic Park. S. 3524 and its companion 
bill, H.R. 4438, would also expand the boundary of the park and 
authorize a study of the potential land acquisition. The 
Department supports S. 3524 which includes the authority to 
operate the headquarters facility and authorizes the use of a 
cooperative agreement.
    S. 3565 would provide for the transfer of 315 acres of BLM-
managed lands north of Bullhead City, Arizona to the Arizona 
Game and Fish Department for use as a public shooting range. 
The Department supports this legislation and looks forward to 
working with the subcommittee on a couple of proposed 
improvements.
    S. 3612 would expand the boundary of the Marsh-Billings-
Rockefeller National Historic Park in Vermont. It would also 
authorize the establishment of the Conservation Study Institute 
in collaboration with the University of Vermont. The Department 
supports this bill.
    S. 3616 would withdraw 2,700 acres of BLM-managed land for 
the use of Homeland Security. The Department supports the goals 
of the legislation, but cannot support the bill as presently 
drafted. If the Congress chooses to legislate this conveyance, 
the BLM looks forward to working with the committee on 
amendments to the bill which would address valid and existing 
rights, extensions, and so on.
    S. 3744 would designate Pinnacles National Monument in 
California as Pinnacles National Park. The bill would also add 
2,905 acres to the already designated wilderness at the 
monument and would rename the Pinnacles Wilderness as the Hain 
Wilderness. The Department supports S. 3744 with some technical 
amendments.
    S. 3778 would authorize the Secretary to lease land on 
Cockspur Island within Fort Pulaski National Monument to the 
Savannah Bar Pilots Association. The Department supports this 
legislation but suggests a 5-year term to allow more frequent 
review as opposed to the 10-year term in the bill.
    S. 3820 would authorize the Secretary to issue permits for 
microhydro projects in a limited area of Kantishna Hills in 
Denali National Park. It would also authorize a mutually 
beneficial land exchange between the National Park Service and 
Doyon Tourism, Inc. near Kantishna. The Department supports 
enactment if the legislation is amended to make the actions 
discretionary after NEPA compliance is completed. In addition, 
we suggest providing the Secretary discretionary authority to 
use the permitting authority for other potential microhydro 
projects in the Kantishna area.
    Mr. Chairman, this concludes my testimony. I will be happy 
to answer any questions you might have.
    [The prepared statements of Ms. Stevenson follow:]

   Prepared Statement of Katherine H. Stevenson, Associate Director, 
 Business Services, National Park Service, Department of the Interior, 
                               on S. 3565
    Thank you for the opportunity to testify on S. 3565, the Mohave 
Valley Land Conveyance Act of 2010, which proposes to transfer 315 
acres of public lands managed by the Bureau of Land Management (BLM) to 
the Arizona Game and Fish Department (AGFD) for use as a public 
shooting range. The BLM supports the goals of S. 3565 but cannot 
support the legislation as currently drafted.
    For the past ten years, the BLM has been working with the AGFD, the 
Fort Mojave Indian Tribe, the Hualapai Tribe, and the public to find 
appropriate lands for a public shooting range within the Mohave Valley 
in Arizona. On February 10, 2010, the BLM made the decision to 
authorize the transfer of BLM lands to the AGFD (through the Recreation 
and Public Purposes Act of 1926, as amended, 43 U.S.C. 869 et seq.; 
R&PP) for use as a public shooting range. The decision, which is 
consistent with the goals of S. 3565, provides a safe, designated 
shooting environment for the public and includes stipulations designed 
to respect the traditional beliefs of the Fort Mojave and Hualapai 
Tribes. The BLM will continue working with interested parties as we 
move forward with implementation of the shooting range.
                               background
    In 1999, the AGFD first submitted an application to the BLM for 
development of a public shooting range on BLM-managed lands in Mohave 
County, near Bullhead City in northwestern Arizona. As a result, the 
BLM began working with the AGFD and other interested parties to assess 
appropriate lands to transfer to the AGFD for the purposes of a 
shooting range under the R&PP.
    The BLM evaluated the AGFD's application through an environmental 
assessment (EA) and considered numerous alternative locations 
throughout the Mohave Valley. The evaluation process was conducted with 
full public and tribal participation. There is an identified need for a 
designated public shooting range in this region because of the lack of 
a nearby facility, the amount of dispersed recreational shooting 
occurring on public and private lands raising public safety concerns, 
and the associated natural resource impacts from spent ammunition and 
associated waste.
    In 2002, the BLM began consultations with the Fort Mojave Indian 
Tribe and the Hualapai Tribe. In 2003, the BLM initiated consultation 
with the Arizona State Historic Preservation Officer (SHPO); and in 
2006, the BLM initiated Section 106 consultation with the Advisory 
Council on Historic Preservation (ACHP). These consultations, as 
required by Section 106 of the National Historic Preservation Act and 
other authorities, ensure federal agencies consider the effects of 
their actions on historic properties, and provide the ACHP and SHPO an 
opportunity to comment on Federal projects prior to implementation.
    In addition to the Section 106 consultation process, the BLM 
initiated a year-long Alternative Dispute Resolution (ADR) process in 
2004 to help identify issues, stakeholder perspectives, and additional 
alternatives to meet the criteria for a safe and effective public 
shooting range in the Mohave Valley. However, the ADR process failed to 
reconcile differences between several consulting parties regarding a 
proposed location.
    In 2006, as part of continued Section 106 consultation with the 
ACHP, the BLM initiated site visits by the concerned parties and also 
continued efforts to identify alternative sites. Unfortunately, despite 
these efforts, the BLM was unable to reach an agreement with the 
consulted Tribes on any area within the Mohave Valley that the Tribes 
would find acceptable for a shooting range. The Tribes maintained their 
position that there is no place suitable within the Mohave Valley, 
which encompasses approximately 140 square miles between Bullhead City, 
Arizona, and Needles, California.
    Through the EA process, the BLM identified the Boundary Cone Road 
alternative to be the preferred location. Boundary Cone Butte, a highly 
visible mountain on the eastern edge of the Mohave Valley, lies 
approximately 3 miles east of the Boundary Cone Road site, and is of 
cultural, religious, and traditional importance to both the Fort Mojave 
Indian Tribe and the Hualapai Tribe. In an effort to address the 
primary concerns expressed by the Tribes over visual and sound issues, 
the BLM and AGFD developed a set of potential mitigation measures. 
Again, there was a failure to agree between the consulting parties on 
possible mitigation. In the end, the BLM formally terminated the 
Section 106 process with the ACHP in September 2008. In November 2008, 
ACHP provided their final comments in a letter from the Chairman of the 
ACHP to then-Secretary of the Interior Kempthorne.
    Although the Section 106 process was terminated, the BLM continued 
government-to-government consultations with the Tribes. In May of 2009, 
the BLM met with the Chairman of the Fort Mojave Indian Tribe, the 
AGFD, and the Tri-State Shooting Club in a renewed effort to find a 
solution. On February 3, 2010, after continued efforts to reach a 
mutually agreeable solution, the BLM presented the decision to approve 
the shooting range to the Fort Mojave Indian Tribe and the AGFD. The 
final decision included mitigation measures to address the concerns of 
the Tribes such as reducing the amount of actual ground disturbance; 
reducing noise levels with berm construction; monitoring noise levels; 
reporting annually; and fencing to avoid culturally sensitive areas. 
The Secretary has the authority to take action to revest title to the 
land covered by the proposed R&PP patent if the AGFD fails to comply 
with mitigation measures. The final decision to amend the Kingman 
Resource Management Plan and dispose of the lands through the R&PP was 
signed on February 10, 2010.
    The BLM decision was appealed to the Interior Board of Land Appeals 
(IBLA) on February 23, 2010, by a private landowner near the proposed 
shooting range; and on March 15, 2010, a joint appeal by the Fort 
Mojave Indian Tribe and Hualapai Tribe was filed. The IBLA dismissed 
the appeal of the private landowner but is currently reviewing the 
appeal by the Tribes. The IBLA issued a stay of the BLM decision on 
April 15, 2010, at the request of the Tribes. A final decision by the 
IBLA on the Tribes' appeal is pending.
S. 3565
    S. 3565 provides for the conveyance to the AGFD of all right, 
title, and interest to the approximately 315 acres of BLM-managed 
public lands as identified in the final decision signed by the BLM on 
February 10, 2010, to be used as a public shooting range. Furthermore, 
the legislation makes a determination that the February 10, 2010, 
Record of Decision is ``final and determined to be legally sufficient'' 
and ``not be subject to judicial review . . .'' The bill also provides 
that the lands must be used for purposes consistent with the R&PP Act 
and provides for an appropriate reversionary clause.
    As a matter of policy, the BLM supports working with local 
governments and tribes to resolve land tenure issues that advance 
worthwhile public policy objectives. The BLM acknowledges the lands 
proposed for development as a shooting range are of cultural, 
religious, and traditional significance to the Tribes which is why we 
support important mitigation measures. In general, the BLM supports the 
goals of the proposed conveyance, as it is similar to the transfer the 
BLM has been addressing through its administrative process for the last 
ten years. As noted, a decision has been made through the BLM 
administrative process and is under administrative review before the 
IBLA. Currently, if the IBLA affirms the BLM decision, the Tribes would 
still be able to pursue a judicial remedy. However, under the 
provisions of S. 3565, judicial review would be prohibited.
    The BLM will continue working with the interested parties, 
including the Tribes, during implementation of the shooting range to 
address their concerns. The BLM strongly believes that open 
communication between the BLM and the Tribes is essential in 
maintaining effective government-to-government relationships.
    If the Congress chooses to legislate this conveyance, the BLM would 
recommend some improvements to the bill, including changes to section 
4(b), the incorporation of mitigation measures to address Tribal 
concerns, protection of valid existing rights, and an appropriate map 
reference.
Conclusion
    Thank you for the opportunity to testify. Resolution of this 
conveyance in a manner that is acceptable to all parties has been an 
important goal of the BLM as evidenced by more than ten years of 
negotiations and review. The BLM is confident the recently issued 
decision addresses the concerns of the interested parties, while 
providing critical recreational opportunities and benefits to the 
public.
                               on s. 3616
    Thank you for the opportunity to testify on S. 3616, the Federal 
Law Enforcement Training Center Protection Act of 2010. S. 3616 would 
reserve and withdraw approximately 2,700 acres of public land 
administered by the Bureau of Land Management (BLM) for use by the 
Secretary of Homeland Security for the Federal Law Enforcement Training 
Center (FLETC) in Eddy County, New Mexico. The BLM supports S. 3616, 
and would like to work with the Chairman on amendments to the bill to 
address a number of technical issues.
Background
    The FLETC has operated a law enforcement training center northwest 
of Artesia, New Mexico for the past two decades. The staff in FLETC-
Artesia is responsible for designing, developing, coordinating, and 
administering advanced and specialized training programs for the United 
States Border Patrol, Bureau of Indian Affairs, Transportation Security 
Administration, and other partner organizations. Basic and advanced 
training programs are conducted for the Department of the Interior's 
Bureau of Indian Affairs under the auspices of the Indian Police 
Academy. Specialized instructor programs such as the Law Enforcement 
Driver Instructor Training Program, Firearms Instructor Training 
Program, the Law Enforcement Fitness Coordinator Training Program, and 
the Law Enforcement Control Tactics Instructor Training Program, are 
also conducted at the Artesia facility.
    The FLETC use of public land was first authorized by a right-of-way 
(ROW) issued by the BLM in 1990. Subsequently the FLETC requested 
additional public land for the training center, and the BLM completed a 
land exchange in June 2003 with the State of New Mexico to facilitate 
this expansion. In 2003, the BLM issued a 20-year administrative 
withdrawal of approximately 1,921 acres, subject to valid existing 
rights, for FLETC, although the existing mineral leases continued to be 
managed by the BLM.
    The FLETC has indicated to the BLM a need for an additional 779 
acres, seeking a total area of approximately 2,700 acres. The BLM can 
also accomplish the withdrawal administratively, if the FLETC elects to 
pursue that approach.
S. 3616
    S. 3616 proposes to withdraw and reserve approximately 2,700 acres 
of BLM-managed lands for FLETC for a period of 20 years, subject to 
valid existing rights. The lands would be withdrawn from entry, 
appropriation or disposal; location, entry and patent under mining 
laws, and operation of mineral leasing, mineral materials, and 
geothermal leasing laws. The bill withdraws and reserves the land for 
the purposes of protecting, operating, and maintaining FLETC.
    The BLM supports the withdrawal of the lands for FLETC's law 
enforcement training mission. The BLM frequently works with Congress 
and the Department of Defense on similar legislative withdrawals only 
for military purposes. We believe that those acts may serve as good 
models for this withdrawal. Among the issues that should be addressed 
in this proposed legislation are protection of valid existing rights 
(including existing rights-of-way and oil and gas leases), 
environmental compliance and mitigation, future extensions of the 
withdrawal, restoration and rehabilitation of the land upon termination 
of the withdrawal, and the FLETC's responsibilities under the National 
Environmental Policy Act (NEPA).
                               conclusion
    Thank you for the opportunity to testify. We look forward to 
continuing to work with the Chairman and the Committee on this 
important legislation.
                               on s. 3261
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 3261, a bill to establish the 
Buffalo Bayou National Heritage Area in Texas, and for other purposes.
    The Department recognizes the appropriateness of designating the 
Buffalo Bayou National Heritage Area, but recommends deferring action 
on S. 3261 until program legislation is enacted that establishes 
criteria to evaluate potentially qualified national heritage areas and 
a process for the designation and administration of these areas. We 
recommend that Congress enact national heritage area program 
legislation in this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas. Program legislation was 
introduced in the 109th and 110th Congresses, and we look forward to 
continuing to work with Congress on this very important issue.
    S. 3261 would establish the Buffalo Bayou National Heritage Area 
(NHA) in Harris County, Texas, with the Buffalo Bayou National Heritage 
Area Corporation designated as the National Heritage Area's Management 
Entity. The National Park Service (NPS) completed a suitability and 
feasibility study on the proposed Buffalo Bayou NHA in April 2010 that 
determined that the NHA met the NPS criteria for establishment.
    When brothers Augustus Chapman Allen and John Kirby Allen 
established the city of Houston in 1836, they envisioned a great new 
city, but could not have imagined Houston's role in fueling the rise of 
the United States as a world power in the 20th century. The Houston 
town site was located along the Buffalo Bayou, which was the only semi-
navigable waterway running east and west in Texas. The bayou eventually 
became a major economic access point into the Southwest and a corridor 
to the Gulf of Mexico and beyond.
    Houston's oil industry helped draw and meld cultures that helped 
define its regional character and the economic growth of the Buffalo 
Bayou as a center for oil and petrochemical production shaped the 
community's character.
    Adjacent to the Buffalo Bayou ship channel is the San Jacinto 
Battleground State Historic Site, where Texas gained its independence 
as a republic. A National Historic Landmark and State Park, the San 
Jacinto Battleground provides the cultural and natural landscape for 
the second major theme of the proposed National Heritage Area: Texas 
independence. The historic site also includes the USS Texas battleship, 
also designated as a National Historic Landmark, which was built in the 
``dreadnought'' era and launched in 1912. After serving in World War I, 
the ship was updated for service in World War II, and participated in 
the amphibious invasions of Normandy, Iwo Jima, and Okinawa.
    Historian Lynn M. Alperin has stated that ``Buffalo Bayou has been 
transformed from a meandering stream into a vast industrial complex.'' 
That transformation has not been without environmental consequences. 
However, as with most cities throughout the United States in the second 
half of the 20th century, Houston has worked to balance economic 
development with environmental protection. Parts of the story of the 
proposed Buffalo Bayou National Heritage Area are environmental and 
recreational initiatives, supported by its industries, including 
wetlands restoration, trails development, prairie restoration, 
riverfront park development, and natural preserves. These efforts are 
part of the story of the community's efforts to improve the quality of 
life for Houston's two million people.
    A potential Buffalo Bayou National Heritage Area, through its 
historical, natural, cultural, and recreational resources, its network 
of partner organizations, its diverse population, and consistent with 
the area's economy, would represent a distinctively American story 
about the nation's growth. The nationally significant themes of Houston 
as the Nation's ``Energy Capital'' and Texas independence are 
significant chapters of our history. These important American stories 
are best told through the framework of a National Heritage Area by the 
people of the Buffalo Bayou themselves and the partner organizations 
that represent them.
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to answer any questions you or any other members of the subcommittees 
may have.
                               on s. 3291
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior regarding S. 3291, a bill to establish 
the Coltsville National Historical Park in Hartford, Connecticut.
    The Department does not support enactment of this legislation due 
to the uncertainty associated with the ownership and long-term 
financial sustainability of the Coltsville development project as 
concluded by the National Park Service (NPS) in a special resource 
study of the resources associated with the Coltsville Historic 
District. In concert with this lack of feasibility, the study was also 
unable to determine the need for NPS management, or specifically which 
resources the NPS would manage.
    The Secretary designated Coltsville Historic District a National 
Historic Landmark on July 22, 2008. The manufacturing complex and 
associated resources constitute the site of nationally important 
contributions to manufacturing technology by Samuel Colt and the 
industrial enterprise he founded in 1855--Colt's Patent Firearms 
Manufacturing Company. It includes, among other resources, the armories 
where firearms and other products were made, the home of Samuel and 
Elizabeth Colt, Colt Park, and housing used by factory workers.
    Samuel Colt is most renowned for developing a revolver design which 
revolutionized personal firearms. The Colt Peacemaker, a six-shot 
revolver, became known as ``the gun that won the West.'' Colt was a 
major innovator in the ``American System'' of precision manufacturing, 
replacing the practice of individually crafting each component of a 
product with the use of interchangeable parts. After his death in 1862, 
his wife Elizabeth owned and directed the manufacturing complex for 39 
years, becoming a major entrepreneur in an age when women rarely 
occupied positions of importance in manufacturing.
    During both World War I and World War II, the Colt Firearms Company 
was one of the nation's leading small arms producers and made vital 
contributions to U.S. war efforts. The company applied its 
interchangeable-parts techniques to a wide variety of consumer products 
and the Colt complex became an ``incubator'' facility for other 
inventors and entrepreneurs. Coltsville is also noteworthy as a fully 
integrated industrial community that includes manufacturing facilities, 
employee housing, community buildings, and landscape features that were 
built largely under the personal direction of Samuel and Elizabeth 
Colt. Colt, whose labor practices were advanced for their time, 
attracted highly skilled laborers to his manufacturing enterprise.
    S. 3291 provides that the Secretary shall not establish a unit of 
the national park system at Coltsville until donations of land or 
interests in land within the boundary of the park have been 
accomplished. It also provides for donations of space within the East 
Armory, the focal point of the manufacturing complex, for 
administration and visitor services. The legislation authorizes 
agreements with other organizations for access to Colt-related 
artifacts to be displayed at the park and cooperative agreements with 
owners of properties within the historic district for interpretation, 
restoration, rehabilitation and technical assistance for preservation. 
Any federal financial assistance would be matched on a one-to-one basis 
by non-federal funds.
    S. 3291 also provides for the establishment of a commission to 
advise the Secretary on the development and implementation of a general 
management plan for the unit. The advisory commission would terminate 
ten years after the date of enactment of the legislation unless 
extended for another ten years by the Secretary.
    Pursuant to Public Law 108-94, the Coltsville Study Act of 2003, 
the NPS conducted a special resource study of the resources associated 
with the Coltsville Historic District. Based on Coltsville's National 
Historic Landmark designation in 2008, the study concluded that 
Coltsville meets the national significance criterion. An analysis of 
comparability to other units of the national park system and resources 
protected by others demonstrated that Coltsville is suitable for 
designation as a unit of the national park system. The study was 
unable, however, to conclude that Coltsville is feasible to administer 
at this time due to the lengthy duration of financial issues 
surrounding the site. In concert with the lack of feasibility, the 
study is also unable to determine the need for NPS management, or 
specifically what the NPS would manage.
    The Department is concerned that financial issues and questions 
involving ownership and financing of the Coltsville properties, 
especially funding for the adaptive reuse of significant portions of 
the manufacturing complex that will remain in private ownership, could 
impede the successful establishment of the proposed park. Until these 
private-sector financial issues are resolved, the Department does not 
believe that the donation of land or interest in land or the donation 
of space for administration and visitor services can be achieved. We 
are also concerned about the long-term financial sustainability of the 
development project, given both its history before and during the 
entire course of the special resource study and the present economic 
climate. The Department cannot own or manage the entire manufacturing 
complex, part of which has already been rehabilitated for residential 
use, due to what we believe would be prohibitive costs and operational 
issues associated with potential full federal stewardship should the 
development project prove unviable.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions from members of the committee.
                        on s. 3524 and h.r. 4438
    Mr. Chairman and members of the Subcommittees, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 3524 and H.R. 4438, bills concerning a new park 
headquarters, a boundary expansion, and a study of potential land 
acquisitions at San Antonio Missions National Historical Park.
    The Department supports S. 3524. On February 25, 2010, the 
Department testified on H.R. 4438 before the House Subcommittee on 
National Parks, Forests and Public Lands. At that hearing we stated 
that that we supported the bill, but that we would like to work with 
the committee to address ambiguities in the portions of H.R. 4438 that 
directed the Secretary to enter into a lease agreement for the 
operation of a park headquarters and operational facility. H.R. 4438 as 
passed by the House does not include the authority to operate the 
headquarters facility, which we believe is a critically important 
component of this legislation. S. 3524 addresses our concerns by 
authorizing the use of a cooperative agreement, instead of a lease, for 
this facility.
    S. 3524 and H.R. 4438 would amend Section 201 of Public Law 95-629 
to direct the Secretary of the Interior (Secretary) to conduct a study 
of lands in Bexar and Wilson Counties to identify lands that would be 
appropriate to include within the boundaries of San Antonio Missions 
National Historical Park (Park). The Secretary is directed to report on 
the findings of the study three years after funds are made available. 
S. 3524 also authorizes the Secretary to enter into a cooperative 
agreement with the City of San Antonio, or its designee, for operation 
of a facility outside the boundary of the park to provide visitor 
facilities and office space for a headquarters and operational support 
for the park. Funding for the cooperative agreement would be subject to 
appropriations. Finally, under both bills, the boundary of the park 
would be expanded by approximately 151 acres.
    San Antonio Missions National Historical Park preserves a 
significant link to Mexico and Spain that has influenced the culture 
and history of the United States since before its inception. San 
Antonio is now the seventh largest and third fastest growing city in 
the United States. The city grew 68 percent between 1980 and 2007 and 
now almost entirely surrounds the Park with urban development, 
threatening areas that contain significant Spanish colonial resources 
historically associated with the Park.
    Park headquarters for San Antonio Missions are currently 
inadequate; do not meet fire, safety or security standards; and exist 
in an expired lease space not adjacent to the Park. The Park's 
maintenance operations are dispersed in three separate locations. The 
Park's curatorial collection, which contains almost one million Spanish 
Colonial period objects, is stored in four different locations, 
including two locations that do not meet National Park Service (NPS) 
Curatorial Storage Standards.
    The City of San Antonio, Texas (City) has acquired lands adjacent 
to Mission San Jos and has proposed a partnership with the Park and one 
of its partners for the construction of a park headquarters. A 
cooperative agreement, such as the one described in S. 3524, would 
provide the NPS with the ability to enter into an agreement with the 
City or an entity of the City's choosing such as Los Compadres de San 
Antonio Missions National Historical Park (Los Compadres), to assist 
with operation of visitor facilities and office space for a park 
headquarters.
    S. 3524 and H.R. 4438 would also expand the boundary of San Antonio 
Missions National Historical Park by approximately 151 acres, of which 
118 acres are either currently owned by the NPS, are being donated, or 
are being transferred through a land exchange to the Park. All costs 
associated with the land exchange will be paid for by the San Antonio 
River Authority with the NPS only paying for minimal transaction costs. 
Thirty-three acres would either be purchased by the NPS from willing 
sellers or donated to the Park. It is estimated that the acquisition of 
these 33 acres could cost as much as $3,587,110 and operational costs 
associated with adding the 151 acres of land are not expected to exceed 
$100,000 per year. Associated land acquisition funding requests would 
be subject to the Administration's prioritization process that uses 
consistent and merit-based criteria to select projects, and the 
availability of appropriations.
    The Park's General Management Plan and Land Protection Plan 
acknowledge that the current boundary is insufficient to fully achieve 
the Park's purpose. The Park's most recent feasibility study 
recommended a much larger area to best protect the cultural resources 
associated with the Park. Numerous areas that contain significant 
Spanish colonial resources historically associated with the Park still 
remain outside the boundary. In addition, the Park has acquired lands 
that are outside the current boundary and is in the process of 
accepting additional lands that will be included within the boundary as 
a part of a land exchange with the San Antonio River Authority and U.S. 
Army Corps of Engineers to facilitate restoration of the San Antonio 
River.
    S. 3524 and H.R. 4438 would also authorize the Secretary to conduct 
a study of lands within Bexar and Wilson counties, in the State of 
Texas, to identify lands that would be suitable for inclusion within 
the boundaries of the Park. The study should also explore management 
alternatives that would best ensure public access, preservation, 
protection, and interpretation of the Missions. We estimate that this 
study will cost approximately $350,000.
    This legislation enjoys the strong support of officials from Bexar 
County, Wilson County, the City of San Antonio, the City of 
Floresville, the San Antonio River Authority, the San Antonio 
Conservation Society, Los Compadres, and others. It would help 
guarantee the preservation, protection, restoration, and interpretation 
of the missions for current and future generations.
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to answer any questions you or any other members of the Subcommittees 
may have.
                               on s. 3612
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior regarding S. 3612, a bill to amend the 
Marsh-Billings-Rockefeller National Historical Park Establishment Act, 
and to expand the boundary of the park to include the King Farm.
    The Department supports enactment of S. 3612 if amended to provide 
that the inclusion of the King Farm within the boundary is subject to a 
determination of the Secretary that the property meets National Park 
Service (NPS) boundary adjustment criteria.
    Marsh-Billings-Rockefeller National Historical Park encompasses the 
historic Marsh-Billings Rockefeller mansion and grounds, and the Mount 
Tom Forest in Woodstock, Vermont. It was a gift to the people of the 
United States from Mary and Laurance Rockefeller. Mary Rockefeller's 
grandfather, Frederick Billings, developed the property into a model 
farm and forest in the late 1880s. Billings' stewardship efforts were 
influenced by George Perkins Marsh, a conservationist and author of the 
1864 landmark book Man and Nature. Marsh spent his childhood years on 
the property.
    The park was established by Congress in 1992 to interpret the 
history and evolution of conservation stewardship in America and to 
recognize and interpret the lives and contributions of George Perkins 
Marsh, Frederick Billings, the Billings heirs, and Mary and Laurance 
Rockefeller. It is a continuing symbol of three generations of 
conservationist thought and practice. It is also a repository for the 
histories of three quintessentially American families.
    S. 3612 would expand the park's present boundary to include the 
adjacent 156-acre King Farm, one of Vermont's finest examples of an 
early, self -sustaining Vermont hill farm. The farm is unique as an 
intact collection of farm buildings and agricultural lands that 
document the evolution of farming from the early 1800s to the present. 
The King Farm plays an important role in park operations, providing key 
linkages for the park's network of recreational trails and facilities. 
The addition of these lands would enable the park to better conserve 
and interpret the history and evolution of conservation stewardship in 
America.
    The King Farm is presently owned by the Vermont Land Trust (VLT). 
The VLT can no longer afford to maintain and operate the farm and 
issued a national search for a long-term leasee, but without success. 
If the King Farm were to be sold to a private owner, it could result in 
loss of public access and damage to park resources. The farm currently 
serves as a hub for the park's youth service learning programs and 
provides the only available dedicated classroom and leave-no-trace camp 
site to support these programs. Loss of the farm would sever the only 
direct trail connection between local schools and park lands. The King 
Farm also provides important habitat for the Jefferson Salamander, 
which has been identified as a species of special management concern. 
In 2010, the park initiated a public process to evaluate a proposal to 
expand the boundary to include King Farm. Local governments and area 
citizens have expressed strong support for this addition and 
preliminary findings of this boundary study indicate that the property 
meets the National Park Service boundary adjustment criteria. .
    Based on a comparable property sales analysis, the estimated value 
of the King Farm including pre-acquisition costs is $1,205,000. 
Improvements to farm assets addressing deferred maintenance needs, 
providing for greater public access, and life and safety and energy 
efficiency measures would total approximately $1,558,000. Annual park 
operations costs are anticipated to increase by $124,000. To help 
offset these costs, the Vermont Land Trust intends to manage a small 
existing endowment to support projects at the King Farm that would 
benefit facility maintenance and education programs. S. 3612 would 
authorize the Secretary to receive and expend such funds.
    S. 3612 would also provide authority for the operation of the 
Conservation Study Institute at the park in collaboration with the 
University of Vermont. The Institute was established by the National 
Park Service to advance leadership and innovation through collaborative 
conservation partnerships for the stewardship of our national system of 
parks and special places. The Institute provides technical assistance 
to parks, heritage areas, and regional and national programs by 
conducting demonstration projects, distilling and sharing lessons 
learned, and building networks for information exchange. The Institute 
has been funded through the park's base operating budget since the 
enactment of FY 2000 appropriations. The park receives $520,000 a year 
in its budget specifically for operation of the Institute. Additional 
funding through cost-share programs with the University of Vermont 
serves to provide educational outreach to youth and the local 
communities. This legislation would provide permanent authority for the 
Institute to continue to operate at Marsh-Billings-Rockefeller National 
Historical Park. The bill further provides for the development of a 
revised General Management Plan for the park. We are reviewing the 
legislation for any technical amendments that might be needed and would 
like to work with the committee on any necessary change in language we 
identify.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions from members of the committee.
                               on s. 3744
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
3744, a bill to establish Pinnacles National Park in the State of 
California as a unit of the National Park System, and for other 
purposes.
    The Department supports S. 3744, which would designate and rename 
additional wilderness areas within Pinnacles National Park with 
technical amendments.
    The bill would add 2,905 acres to the designated wilderness at the 
monument and rename the Pinnacles Wilderness as ``Hain Wilderness.'' 
Congress has recognized wilderness characteristics at Pinnacles by 
previously designating more than one-half of the monument's 24,000 
acres as wilderness. The additional acreage is appropriate for 
wilderness designation.
    Naming the wilderness as ``Hain Wilderness'' would commemorate the 
establishment of Pinnacles National Monument by immigrant homesteaders 
from Michigan who first arrived at the Pinnacles in 1886. The Hain 
families were farmers and community pioneers who established the first 
post office and county road. In 1893, Schuyler Hain conceived the idea 
of designating the Pinnacles a public park or even a national park. Mr. 
Hain successfully championed the establishment of the Pinnacles Forest 
Reserve in 1906 and Pinnacles National Monument in 1908. The National 
Park Service considers it a high honor to be permanently commemorated 
in a unit of the national park system and seeks to reserve this honor 
for cases where there is a compelling justification for such 
recognition. We believe that there is a compelling justification in 
this case.
    If the committee decides to act on S. 3744, we suggest the 
following technical amendments:

  <bullet> On page 4, line 16, strike ``are'' and insert ``shall 
        consist of those areas''.
  <bullet> On page 6, lines 6 and 7, delete the map reference and 
        substitute a new map reference to a map produced by the 
        National Park Service (to be provided).

    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions that you may have.
                        on s. 3778 and h.r. 4773
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 3778 and H.R. 4773, bills to 
authorize the Secretary of the Interior to lease certain lands within 
Fort Pulaski National Monument, and for other purposes.
    The Department supports both bills, which are substantially 
identical, with an amendment described later in this statement. This 
legislation would allow the Savannah Bar Pilots Association to lease 
the land on Cockspur Island within Fort Pulaski National Monument in 
the State of Georgia that the association has used continuously since 
1940.
    In 1940, the National Park Service authorized by special use permit 
exclusive use of National Park Service land and improvements to the 
Savannah Bar Pilots Association to operate a vessel piloting business. 
The National Park Service has issued a series of permit renewals during 
the ensuing 70 years. However, in recent years, the National Park 
Service has been advised by the Department's Solicitor's Office that 
the association's use of this land should be based on more certain 
legal authority than the special use permitting process. The National 
Park Service believes that a non-competitive lease, which would be 
authorized by S. 3778 and H.R. 4773, would be the best option in this 
unique circumstance to enable the Savannah Bar Pilots Association to 
continue traditional operations from its Fort Pulaski location. The Bar 
Pilots serve a function that is vital to the state's deepwater ports 
and inland barge terminals, including directing ship traffic and 
assisting in navigation in the Savannah Harbor.
    There are no other known locations from which Savannah Bar Pilots 
Association can operate more efficiently than its current location. 
Deep water accessibility and the relatively short distance to embarking 
and disembarking ships in Savannah Harbor render the current Cockspur 
Island site the ideal location for continued operations. The Savannah 
Bar Pilots have been operating at the current location with virtually 
no adverse impact on park resources, on the visitor experience, or on 
park operations. Fort Pulaski National Monument derives revenue from 
the current special use permit and would continue to do so from a 
lease. The Savannah Bar Pilots enjoy local support from both the City 
of Savannah and the Georgia Port Authority.
    We recommend that the legislation be amended to provide for a lease 
term of up to five years, rather than ten years, in order to allow for 
more frequent review of the lease's terms and conditions. A shorter 
period would help protect the government's interests and assure that 
use of the leased land remains consistent with the established purposes 
of Fort Pulaski National Monument. We would be happy to work with the 
committee to provide appropriate language for this amendment.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or any members of the subcommittee 
may have.
                               on s. 3820
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 3820, a bill to authorize the 
Secretary of the Interior to issue permits for micro-hydro projects in 
non-wilderness areas within the boundaries of Denali National Park and 
Preserve, and for other purposes.
    The Department supports the intent of this legislation, but would 
like to work with the sponsor and the committee to address several 
significant concerns noted below. S. 3820 would authorize the Secretary 
of the Interior to issue permits for micro-hydro projects in a limited 
area of the Kantishna Hills in Denali National Park. The legislation 
would also authorize a land exchange between the National Park Service 
(NPS) and Doyon Tourism, Inc. (Doyon) involving lands near the historic 
mining community of Kantishna that would be mutually beneficial to the 
NPS and Doyon.
    This legislation will reduce the use of fossil fuels in the park, 
and thus lessen the chance of potentially catastrophic fuel spills 
along the park road and at the Kantishna lodges. It will lower the 
number of non-visitor vehicle trips over the park road, lessen the 
noise and emissions from diesel generators in the Moose Creek valley, 
and support clean energy projects and sustainable practices while 
ensuring that appropriate review and environmental compliance protects 
all park resources.
    Doyon Tourism, Inc., a subsidiary of Alaska Native corporation 
Doyon, Ltd., has requested permits from the NPS to install a micro-
hydroelectric project on Eureka Creek, near their Kantishna Roadhouse. 
The NPS supports the intent of this project, however, neither the 
Secretary nor the Federal Energy Regulatory Commission (FERC) has the 
statutory authority to issue permits for portions of hydroelectric 
projects within national parks or monuments. We believe that the 
authorization contained in this legislation is necessary to enable the 
NPS to allow this micro-hydroelectric project within the park.
    The Kantishna Roadhouse, at the end of the 92-mile-long Denali park 
road, has been in business for 28 years, hosts approximately 10,000 
guests per summer, and currently uses an on-site 100 kilowatt (KW) 
diesel generator to provide power for the facility. The proposed 
hydroelectric installation would reduce but not eliminate all use of 
the diesel generator at the lodge, because early in the tourism season 
the creek may still contain ice and a backup system would be needed.
    Currently, delivery of diesel fuel to the lodge requires a tanker 
truck and trailer to be driven the entire length of the Denali park 
road. Noted for its undeveloped character, the road is unpaved for 77 
miles of its 92-mile length, crosses high mountain passes without 
guardrails, and is just one to 1+ lanes wide with pullouts. The road is 
justly famous for wildlife viewing opportunities and in order to 
protect wildlife as well as the road's scenic wilderness character, 
vehicle traffic is limited. A seasonal restriction on private vehicle 
use was instituted in 1972, and a numerical limit on overall vehicle 
use was established in special regulations in 2000. Reducing the amount 
of diesel fuel hauled over this road in tanker trucks protects park 
resources by reducing the risk of accident or spill, and simultaneously 
reduces overall vehicle use of the road.
    Eureka Creek is a 4-mile-long stream that drains a 5 square-mile 
watershed and discharges about 15 cubic feet per second (cfs) during 
the summer. Most of the floodplain has been disturbed by past placer 
mining, but no mining claims exist on the creek now and no other 
landowners besides Doyon and the NPS own any property near this 
floodplain. The project would include an at-grade water intake, with no 
impoundment, about one mile upstream of where Eureka Creek crosses the 
park road. A water conduit, or penstock, would carry the water downhill 
to a small building on Doyon land that would house a micro-hydro 
generator, capable of producing approximately 100 KW. An electrical 
distribution line would carry the electricity to the lodge, about 600 
feet from the hydro generator. A battery bank would store surplus 
electricity to accommodate peak power demands and maintenance shut-
downs of the generator. Water diverted from Eureka Creek through the 
micro-hydro generator would be piped to Moose Creek less than 100 feet 
downstream from the mouth of Eureka Creek.
    Camp Denali, another lodge in the Kantishna Hills, is within the 
area addressed by this legislation. Camp Denali opened in 1952 and the 
owners installed a micro-hydro generator system prior to the 1978 
Presidential proclamation that included Kantishna as a part of what is 
now Denali National Park. After 1978, Camp Denali became a private 
inholding surrounded by the park, and found that parts of its micro-
hydro power system were within the park, a situation which the NPS 
lacks the authority to permit or retain. This legislation, if amended, 
would allow the NPS and the owners of Camp Denali to work out permit 
conditions for those parts of the existing hydro project that are now 
on park land. Besides the Kantishna Roadhouse and Camp Denali, there 
are two other lodges in Kantishna that may pursue similar projects in 
the future and thus would benefit from the authority granted in this 
legislation.
    Doyon owns 18 acres on the patented Galena mining claim in the 
Kantishna Hills and would like to exchange that acreage for park land 
in Kantishna of equal value near its other properties. The NPS would 
also like to pursue this exchange to consolidate land holdings in the 
area. Existing land exchange authority from ANILCA and other 
legislation is sufficient to effect this exchange. Thus, while we 
believe that this provision is unnecessary, we support its intent.
    Our concerns with the bill are as follows:

          1) The bill as introduced requires the Secretary to issue 
        permits for the micro-hydro project within 180 days of 
        enactment. While the Department supports the intent of this new 
        authority, permit issuance should be discretionary and based on 
        an evaluation of the environmental impacts of each project 
        proposal. At the same time, the Department commits to a timely 
        review of project proposals given the potential environmental 
        and economic benefits of these projects.
          2) The permitting authority provided by this bill would apply 
        to several different micro-hydro electric projects in the 
        Kantishna area, yet various elements of the bill as introduced 
        apply solely to a project by Doyon. For example, the 
        definitions found in section 2 of the bill specifically include 
        the water intake and pipeline for the Doyon project but do not 
        mention Camp Denali or other potential future permittees, and 
        Section 3 refers to ``the micro-hydro project'' in the singular 
        rather than the plural. We suggest that the bill be amended to 
        clearly provide the Secretary the discretionary authority to 
        permit any of several projects.
          3) Both the proposed micro-hydro project and the proposed 
        land exchange sections of the legislation should be amended to 
        explicitly require compliance with NEPA and other environmental 
        and cultural resource protection laws to evaluate the impacts 
        of any proposal authorized by this legislation and afford 
        public comment before the Secretary makes the decision on 
        whether the project(s) should be permitted.
          4) As written, a land exchange is mandated. The land exchange 
        should be discretionary, based on a careful analysis of all its 
        proposed elements, which have yet to be determined, and upon 
        public input.

    We believe that the permitting authority granted in S. 3820 would 
provide a tool that the Secretary could use to lower fossil fuel use in 
Denali National Park, while protecting park resources, and that a land 
exchange would be hastened through passage of this legislation. We 
would welcome the opportunity to work with the sponsor and this 
committee to address our concerns and recommendations.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you may have.

    Senator Udall. Thank you for being concise and to the point 
and informative.
    Ms. Stevenson. You are very welcome.
    Senator Udall. Let me turn to Gregory Smith, Director of 
Lands, Forest Service, Department of Agriculture. Welcome, Mr. 
Smith. The floor is yours.

   STATEMENT OF GREGORY C. SMITH, DIRECTOR OF LANDS, FOREST 
               SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Smith. Thank you, Mr. Chairman. I am Greg Smith, 
Director of Lands and Realty for the U.S. Forest Service, and 
we thank you for the opportunity to testify on three bills 
before you today.
    First, H.R. 1858 directs the Secretary of Agriculture to 
convey without consideration all right, title, and interest of 
the United States to a parcel of real property in the Roosevelt 
National Forest in order to resolve private encroachments on 
the National Forest System lands.
    In 2003, during a routine survey by the BLM where the 
Crystal Lakes Subdivision is located, 20 private encroachments 
were identified. These encroachments are due to an erroneous 
survey in 1975 by a private land survey. They are small 
encroachments, varying in size from 0.02 acres to 1.6 acres.
    Only 4 of these encroachments involve houses or significant 
structures on NFS land and thus qualify for resolution under 
the Small Tracts Act. In qualifying for the Small Tracts Act, 
it is authorized to sell encroachments upon NFS lands to 
homeowners for market value.
    The other 16 encroachments do not involve significant 
structures on NFS lands. Therefore, they do not qualify for 
resolution under the Small Tracts Act.
    The Forest Service has met with qualifying homeowners and 
the subdivision developer and encouraged them to work with us 
to remedy the situation through a Small Tracts Act or some type 
of land exchange.
    The Department cannot support the bill in its current form 
because it does not appear in the public interest. The Small 
Tracts Act requires private landowners to pay market value for 
National Forest System lands that have been encroached upon 
with significant structures. H.R. 1858 would direct the use of 
the Small Tracts Act to convey encroached-upon NFS lands to all 
20 Crystal Lakes landowners and exempt all of them from paying 
compensation to the United States. It is a longstanding policy 
that the taxpayers of the United States receive market value 
for the sale, use, or exchange of NFS lands.
    Section 1(e) of H.R. 1858 requires the cancellation of 
$200,000 of an unobligated balance in the Federal Lands 
Recreation Enhancement Act in order to lessen the loss of 
revenue to the United States taxpayers from the proposed 
conveyances without compensation at Crystal Lakes. The 
Department does not support the use of national recreation fees 
and is a direct conflict provided Congress for these fees. 
However, we would be happy to continue to work with the Crystal 
Lakes homeowners and the subcommittee and the bill's sponsors 
to resolve the issues in a manner that addresses both the 
homeowners and protects the interests of the United States 
taxpayers.
    S. 3822 would modify the boundaries of the Carson National 
Forest in New Mexico to include an area of approximately 5,000 
acres that is adjacent to the local forests within the Miranda 
Canyon near Taos in New Mexico.
    The Department supports this bill. This adjustment of the 
Carson National Forest boundary would allow the Forest Service 
to acquire property known as Miranda Canyon Preserve. The 
Miranda Canyon Preserve ranges in elevation from 7,200 feet to 
10,800 feet. Its vegetation includes sagebrush, pinon juniper, 
mixed conifer forest, and large aspen clones. It provides 
breathtaking views of the Rio Grande Gorge and Wheeler Peak 
which is the highest point in New Mexico. The property also 
contains historic features such as the Camino Real Trail and 
unique geologic features such as a small volcano.
    The acquisition of the Miranda Canyon property would make 
an outstanding addition to the National Forest System.
    S. 3283, the Mt. Andrea Lawrence Designation Act of 2010, 
directs an unnamed 12,240-foot peak located on the boundary 
between Ansel Adams Wilderness and Yosemite National Park as 
Mt. Andrea Lawrence. The management of the proposed Mt. Andrea 
Lawrence would be shared between the Inyo National Forest and 
Yosemite National Park.
    Ms. Lawrence was an Olympic gold medalist and provided 
committed public service. She was 16 years on the Mono County 
Board of Supervisors and founded the Andrea Lawrence Institute 
for Mountains and Rivers. She was a strong supporter of 
conservation work for the Inyo National Forest and Yosemite 
National Park. She worked tirelessly to protect the health and 
vitality of the environment in the Sierras. Ms. Lawrence passed 
away at the age of 76 on March 31, 2009.
    The Department recognizes the contributions of Ms. Lawrence 
to the United States and to the Sierras as a conservationist 
and concurs with the principles embodied in the legislation.
    Mr. Chairman, this concludes my statement, and I would be 
happy to answer any questions.
    [The prepared statement of Mr. Smith follows:]

   Prepared Statement of Gregory C. Smith, Director of Lands, Forest 
                   Service, Department of Agriculture
    Mr. Chairman and Members of the Subcommittee, I am Gregory C. 
Smith, Director of Lands for the US Forest Service. Thank you for the 
opportunity to appear before you to provide the Department of 
Agriculture (USDA)'s view on three of the bills that you are 
considering today.
                              on h.r. 1858
    H. R. 1858 directs the Secretary of Agriculture to use the 
authority provided by the Small Tracts Act (STA) to convey, without 
consideration, all right, title, and interest of the United States to a 
parcel of real property in the Roosevelt National Forest in order to 
resolve private encroachments on the National Forest System Lands.
    In 2003, during the course of a Bureau of Land Management survey of 
the area where the Crystal Lakes Subdivision is located, 20 private 
encroachments onto National Forest System (NFS) lands were discovered 
due to an erroneous private land survey in 1975 for the 9th Filing, 
Crystal Lakes Subdivision. The encroachments vary in size from 
approximately 0.02 acres to 1.63 acres. Of the 20 encroachments, only 
four lots with improvements qualify for resolution under the Small 
Tracts Act. The other 16 encroachments do not qualify for resolution 
under the Small Tracts Act. To qualify for the Small Tracts Act the 
foundation of a building or residence must be encroaching. Moveable 
improvements such as fences and sheds do not qualify for relief under 
the STA. The Forest Service has encouraged the four landowners, where 
appropriate, to work with us to remedy the situation under the Small 
Tracts Act authority.
    The Department cannot support the bill in its current form. It 
would waive the Small Tracts Act requirement for the four adjoining 
private landowners to pay market value for the encroached upon National 
Forest System (NFS) land proposed for conveyance to them. H. R. 1858 
would direct the use of the Small Tracts Act to the remaining 16 
encroachments that do not qualify for resolution under the Small Tracts 
Act. It is long-standing policy that the taxpayers of the United States 
should receive market value for the sale, exchange, or use of their NFS 
lands. The STA requires market value consideration for lands. H. R. 
1858 would convey the disputed property without the United States 
taxpayers receiving market value.
    The Crystal Lakes Subdivision is a private in holding within the 
Roosevelt National Forest encompassing approximately 240 acres. The 
developer who owns and subdivided this land contracted for a private 
land survey in 1975. In surveying the land, the private surveyor 
erroneously located a section line corner which is the cause of the 
current problem. Years later, the Bureau of Land Management identified 
the error when doing a dependent resurvey of the area. The result of 
this private survey error is that approximately 7.23 acres of National 
Forest System land was incorrectly included within the subdivision. The 
error affects the titles and boundaries to 20 subdivided parcels.
    H. R. 1858 would have the Federal Government resolve the survey 
error by conveying the encumbered federal land to the affected lot 
owners, in effect ratifying the error of the private surveyor. The bill 
would allow lot owners to pay no consideration for the conveyance, and 
the United States Government would have to cover the administrative 
costs (which may in fact be considerably more that the 7.23 acres is 
worth). H. R. 1858 would require the identification and survey of 
separate legal descriptions for upwards of 20 separate conveyances.
    In addition, Section 1. (e) of H. R. 1858 requires the cancellation 
of a portion of unobligated balance in the Federal Lands Recreation 
Enhancement Act (FLREA), reducing and cancelling this account by 
$200,000 to address the lost revenue to the United States taxpayers. 
The Department does not support this use of FLREA funds, because this 
use is in direct conflict with the direction provided by Congress in 
FLREA. FLREA states that recreation fees ``shall be used only for-(A) 
repair, maintenance, and facility enhancement related directly to 
visitor enjoyment, visitor access, and health and safety; (B) 
interpretation, visitor information, visitor service, visitor needs 
assessments, and signs; (C) habitat restoration directly related to 
wildlife-dependent recreation that is limited to hunting, fishing, 
wildlife observation, or photography; (D) law enforcement related to 
public use and recreation; (E) direct operating or capital costs 
associated with the recreation fee program; and (F) a fee management 
agreement.''
    We would be happy to continue to work with the landowners, the 
Subcommittee, and the bill's sponsors to resolve this issue in a manner 
that addresses the concern of current home owners and protects the 
interests of US taxpayers.
                               on s. 3822
    S. 3822 would modify the boundaries of the Carson National Forest, 
New Mexico to include a parcel of real property consisting of 
approximately 5,000 acres that is adjacent to the existing boundary 
within Miranda Canyon.
    The Department supports the adjustment of the Carson National 
Forest boundary in the State of New Mexico to include approximately 
5,000 acres of private land known as ``Miranda Canyon,'' which would 
create an opportunity for the possible acquisition of Miranda Canyon 
property as part of the Carson National Forest.
    The Miranda Canyon Property is currently owned by Weimer Properties 
and is located approximately four miles south of Taos, New Mexico. 
Weimer Properties spent several years proposing to develop a 
subdivision and to acquire approval from the Taos County Board of 
Commissioners. Approval of the subdivision was not granted and the Taos 
County Board of Commissioners requested the New Mexico Congressional 
delegation consider placing this land under the stewardship of the US 
Forest Service.
    The Miranda Canyon Property is an expansive piece of property that 
ranges in elevation from approximately 7,200 ft. to approximately 
10,800 ft. The property has various vegetation zones from low elevation 
sagebrush and pinon juniper to high elevation mixed conifer forest 
including large aspen clones. The landscape has numerous ridges and 
peaks that provide breathtaking views of the Rio Grande Gorge to the 
west and of Wheeler Peak (highest peak in New Mexico) to the north. The 
property contains historical features such as the Camino Real Trail and 
unique geologic features such as a small volcano and Miranda granite--
1.7 billion year old rock outcrops that rival the age of rock found at 
the bottom of the Grand Canyon. There are also numerous meadows and 
riparian vegetation that provide excellent habitat for wildlife.
    The acquisition would provide additional recreational opportunities 
for hunting, sightseeing, camping, hiking, interpretation and horseback 
riding for the public. The proposed boundary adjustment has wide grass 
roots support from the local residents, Taos County Board of 
Commissioners, Village of Taos, and local Native American Tribes and 
Pueblos. To date, there has been no opposition voiced to adjusting the 
boundary of the Carson National Forest. The adjustment of the Forest 
boundary would open the door to potential federal acquisition of 
Miranda Canyon. We estimate the acquisition costs to be $15 to $16 
million, which would be subject to the availability of appropriations. 
The landowner of the Miranda Canyon property has agreed to a 
conservation sale to the United States. At present, there is a fully 
executed 4 year phased purchase agreement in place between the 
landowner and a 3rd party non-profit organization. This agreement keeps 
the property from being developed or sold on the open market while the 
appraisal is finalized and reviewed by all parties. If the acquisition 
of the Miranda Canyon property were to occur this would make an 
outstanding addition to the National Forest System.
                               on s. 3283
    This legislation directs the designation of an unnamed 12,240 foot 
peak, located on the boundary between Ansel Adams Wilderness Area and 
Yosemite National Park approximately six tenths miles (0.6) northeast 
of Donahue Peak, as ``Mt. Andrea Lawrence.'' The management of the 
proposed Mt. Andrea Lawrence is shared between the Inyo National Forest 
and Yosemite National Park. We have consulted with the U. S. Department 
of the Interior--National Park Service in the preparation of this 
statement.
    Ms. Lawrence was a successful Olympic athlete and a committed 
public servant, having served 16-years on the Mono County Board of 
Supervisors and founded the Andrea Lawrence Institute for Mountains and 
Rivers. She was a strong supporter of the work of the Inyo National 
Forest and Yosemite National Park. She worked tirelessly to protect the 
health and vitality of the environment and economies in the Eastern 
Sierra and the Sierra Nevada Region as a whole. Ms. Lawrence passed 
away at the age of 76 on March 31, 2009.
    The Department has no objection to the enactment of S. 3283 and 
notes that it would have no adverse impact to the management of the 
Inyo National Forest, or the Ansel Adams Wilderness. However, the Board 
on Geographic Names was created by Congress in 1947 to establish and 
maintain uniform geographic name usage throughout the Federal 
Government. It is Board policy not to consider names that commemorate 
living persons. In addition, a person must be deceased at least 5-years 
before a commemorative proposal will be considered. In accordance with 
the Board's interpretation of Wilderness Act of 1964, the Board on 
Geographic Names discourages naming features in congressionally 
designated wilderness areas unless an overriding need can be 
demonstrated. Although the Administration does not have any objections 
to the enactment of S. 3283, maintaining consistency with the 
longstanding policies of the Board on Geographic Names is recommended.
    The Department recognizes the contributions of Ms. Lawrence to both 
the United States and California, and concurs with the principles 
embodied in the legislation. Should the legislation be enacted, the 
Forest Service would work to ensure that our visitor information maps 
reflect the new designation, and understand that the National Park 
Service would do the same when their maps, signs, and other 
informational materials are replaced or updated.

    Senator Udall. Thank you, Mr. Smith.
    Now we will turn to Mr. Aaron Schutt. I hope I am 
pronouncing your last name right. You are the Senior Vice 
President and Chief Operating Officer of Doyon, Limited. You 
are based in Fairbanks, Alaska. Welcome. Thank you for coming 
to the Nation's capital. The floor is yours.

  STATEMENT OF AARON SCHUTT, SENIOR VICE PRESIDENT AND CHIEF 
        OPERATING OFFICER, DOYON, LIMITED, FAIRBANKS, AK

    Mr. Schutt. Thank you, Mr. Chairman. Glad to be here.
    Senator Burr, Mr. Chairman, thank you for the opportunity 
to testify on S. 3820, a bill to authorize the Secretary of the 
Interior to issue permits for a microhydro project in 
nonwilderness areas within the boundaries of Denali National 
Park and Preserve, to acquire land for Denali National Park and 
Preserve from Doyon Tourism, Inc., and for other purposes.
    I would especially like to thank my home State Senators. 
Senator Lisa Murkowski, who is the ranking Republican member of 
the committee, invited me here to testify today. Senator Mark 
Begich, who joined us earlier, authored the legislation.
    I am Aaron Schutt, Senior Vice President and Chief 
Operating Officer of Doyon, Limited.
    Doyon is one of 13 Alaska Native Regional Corporations 
established by the Alaska Native Claims Settlement Act of 1971. 
Doyon has more than 18,000 Alaska Native shareholders, and we 
are proud of our record on behalf of those shareholders. Our 
mission is to promote the economic and social well-being of our 
shareholders and future shareholders, to strengthen our native 
way of life, and to protect and enhance our land resources.
    The issue that brings me here today involves Doyon's effort 
to improve our energy efficiency and environmental footprint on 
inholdings within Denali National Park. The Kantishna Hills 
Renewable Energy Act provides an avenue for Doyon to develop a 
renewable energy system to provide electrical power to the 
Kantishna Roadhouse. The roadhouse is a full-service wilderness 
lodge providing overnight accommodations to Denali National 
Park visitors.
    Owned and operated by Doyon Tourism, Inc., a wholly owned 
Doyon subsidiary, the Kantishna Roadhouse is located on an 
inholding within Denali National Park. Kantishna Roadhouse 
serves thousands of park visitors each year. As it is located 
100 miles inside the park, the roadhouse is not connected to 
any utility grid and produces 100 percent of its electrical 
energy onsite. Currently our power comes from a diesel 
generator. The system requires trucking several thousand 
gallons of diesel fuel through the park each year. We run the 
generator on a 24-hour basis throughout the entire operating 
season. While Doyon Tourism strives to provide our services in 
the park and on our lands in the most environmentally 
respectful way, we have been unable to economically install a 
renewable energy power supply until now.
    In 2010, Doyon received a Tribal Renewable Energy Grant 
from the Department of Energy. We are using a part of that 
grant to install the microhydro generation system at Kantishna 
Roadhouse. The project is modeled after the system installed at 
the Park Service's recently renovated Eielson Visitors Center, 
also located deep within Denali National Park. The system would 
potentially provide up to half of our current electrical needs, 
offsetting an equivalent amount of diesel usage and its 
incumbent environmental footprint.
    We are facing 2 problems with the construction of this 
project and thus the need for your help with this legislation. 
Of primary concern is the land ownership. While we currently 
own the proposed location of the power plant, we do not own 
some of the land needed for the project. The other issue is the 
deadline for the use of the grant funds which expire 2 years 
after the date of award. Importantly, as those of us from 
Alaska know, we have very short construction seasons, and we 
really only have one available construction season, which is 
next season.
    We have worked with the National Park Service for the past 
year to develop this legislation, and S. 3820 has 2 parts. 
First, it allows the Park Service to issue a permit to Doyon to 
build the proposed project. Second, it calls on the Park 
Service to exchange lands with Doyon so that all of the lands 
needed for the construction and operation of the project are 
owned by Doyon Tourism. In exchange, Doyon would provide an 
equal amount of acreage on a value-for-value basis from our 
other landholdings in the Kantishna area. Under the current 
agreement, about 6 to 7 acres would change hands between the 2 
parties.
    In conclusion, I would like to reinforce my comments that 
this legislation is good for all of the parties involved. S. 
3820 will allow Doyon to move forward with a small renewable 
energy project. The project will substantially reduce all 
aspects of the environmental footprint related to our current 
electrical generation system.
    I would like to thank the committee for the opportunity to 
testify here today, and I am happy to answer any questions that 
you may have.
    [The prepared statement of Mr. Schutt follows:]

  Prepared Statement of Aaron Schutt, Senior Vice President and Chief 
            Operating Officer, Doyon, Limited, Fairbanks, AK
    Mr. Chairman and Members of the subcommittees, thank you for the 
opportunity to testify on S.3820, a bill to authorize the Secretary of 
the Interior to issue permits for a micro hydro project in non-
wilderness areas within the boundaries of Denali National Park and 
Preserve, to acquire land for Denali National Park and Preserve from 
Doyon Tourism, Inc., and for other purposes. I would especially like to 
thank my home state Senators. Senator Lisa Murkowski, who is the 
Ranking Republican Member of the Committee, invited me here to testify 
today. Senator Mark Begich authored this legislation. My name is Aaron 
Schutt, I am the Senior Vice President and Chief Operating Officer of 
Doyon, Limited.
    Doyon is one of thirteen Alaska Native Regional Corporations, 
formed under the Alaska Native Claims Settlement Act of 1971 (ANCSA). 
Doyon has more than 18,000 Alaska Native shareholders, and we are proud 
of our record on behalf of those shareholders. Our mission is to 
promote the economic and social well-being of our shareholders and 
future shareholders, to strengthen our Native way of life and to 
protect and enhance our land and resources.
    The issue that brings me here today involves Doyon's effort to 
improve our energy efficiency and environmental footprint on our in-
holdings within the Denali National Park. The Kantishna Hills Renewable 
Energy Act provides an avenue for Doyon to develop a renewable energy 
system to provide electrical power to the Kantishna Roadhouse. The 
Kantishna Roadhouse is a full service wilderness lodge providing 
overnight accommodations to Denali National Park visitors.
    Owned and operated by Doyon Tourism, a wholly-owned Doyon 
subsidiary, the Kantishna Roadhouse is located on an in-holding within 
Denali National Park. Kantishna Roadhouse serves thousands of Park 
visitors each year. As it is located 100 miles inside the Park, the 
Roadhouse is not connected to any utility grid and must produce 100% of 
its electrical energy onsite. Currently, our power comes from a diesel 
generator. This system requires trucking several thousand gallons of 
diesel fuel through the Park each year. We run the generator on a 
twenty four hour basis through the entire operating season. While Doyon 
Tourism strives to provide our services in the Park and on our lands in 
the most environmentally respectful way, we have been unable to 
economically install a renewable energy power supply until now.
    In 2010, Doyon received a Tribal Renewable Energy Grant from the 
Department of Energy. We are using part of that grant to install a 
micro-hydro power generation system at the Kantishna Roadhouse. This 
micro-hydro project is modeled after the system installed at the Park 
Service's recently renovated Eielson Visitors Center, also located deep 
within Denali National Park and Preserve. This renewable energy system 
would potentially provide up to half of our current electrical energy 
needs, offsetting an equivalent amount of diesel usage and its 
incumbent environmental footprint.
    Doyon is facing two problems with the construction of this 
renewable energy project, thus the need for this legislation. Of 
primary concern is the land ownership. While Doyon currently owns the 
proposed location of the micro-hydro power plant, it does not own some 
of the land needed for the project. The other issue is the deadline for 
use of the grant funds which expire two years after the date of award. 
This legislation addresses both of these problems.
    Doyon has worked with the National Park Service for the past year 
to develop this legislation. S.3820 has two parts. First, it allows the 
Park Serve to issue a permit to Doyon Tourism to build the proposed 
renewable energy project. Second, it calls on the Park Service to 
exchange lands with Doyon so that all of the lands needed for the 
construction and operation of the micro-hydro project are owned by 
Doyon Tourism. In exchange, Doyon would provide an equivalent amount of 
acreage on a value-for-value basis from its other land holdings in the 
vicinity of the Kantishna Roadhouse. Under the current agreement, six 
to seven acres would be exchanged between each of the two parties.
    In conclusion, I would like to reinforce my comments that this 
legislation is good for all the parties involved. S.3820 will allow 
Doyon to move forward with a small renewable energy project. The 
project will substantially reduce all aspects of environmental 
footprint related to our current power generation system: fewer 
truckloads of diesel trucked in over the remote Park roads which in 
turn results in cleaner local air quality and less sound pollution in 
this remote area. Doyon believes this project mirrors the recent 
efforts of the National Park Service to achieve greater use of 
renewable energy at its facilities.
    Thank you for the opportunity to testify before the joint hearing 
today. I would be pleased to answer any questions the Members of the 
Subcommittees may have.

    Senator Udall. Thank you, Mr. Schutt.
    I am going to turn to Senator McCain, who has joined us, if 
he has a statement, and then we will open up to Ranking Member 
Burr the opportunity to ask some questions of the panel.
    Senator McCain.

          STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR 
                          FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. I appreciate your 
holding this markup. My brief statement I would like included 
in the record.
    But I would just like to say that the Mohave Valley Land 
Conveyance Act would transfer approximately 315 acres of BLM to 
the Arizona Game and Fish Commission for purposes of building a 
shooting range near Bullhead City, Arizona.
    I must say that we have been in this 12-year planning 
effort. These organizations all are supportive of Arizona Game 
and Fish: NRA, Sportsmen's Foundation, and 34 other 
organizations. After 12 years of jumping through hoops, the gun 
owners and law enforcement officers of Mohave County, Arizona 
and the tri-state area deserve to break ground.
    I understand there are still some concerns. I would 
appreciate it if we could report the bill out and we will try 
and work out some of these additional concerns that people seem 
to have.
    But 12 years is a long time, Mr. Chairman, and everybody, 
with the exception of the Native American tribes, are in 
support and we will try to continue to work with them. But I 
would appreciate your moving the bill through the subcommittee. 
I thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator McCain.
    With that, let me turn to Ranking Member Burr for questions 
he might have of the panel.
    Senator Burr. I thank the chair. I thank our witnesses 
today, and I thank Senator McCain. As you were talking, Mr. 
Schutt, he gave Senator Udall and I rights to come down and use 
the shooting range. So there is no opposition left on this.
    [Laughter.]
    Senator Burr. Ms. Stevenson, the National Park Service 
reports a maintenance backlog currently of over $9 billion. 
Yet, 6 of the bills in front of the subcommittee today seek to 
establish new park units or to increase the land of current 
units.
    Let me ask you. Do you believe the National Park Service 
should pay down its maintenance backlog before Congress 
instructs the addition of new park units or increased land?
    Ms. Stevenson. The answer is yes. We are working very hard 
on our maintenance backlog. The recently passed ARRA has 
allowed us to spend $700 million in reducing that backlog. We 
have been very successful in obligating that money.
    Of the bills before you, I believe that only one would 
create a new national park, and that is Coltsville and we 
oppose that bill. The other areas are modest additions to park 
units, and we have provided costs for each of those.
    Senator Burr. I appreciate that. Let me just reiterate. You 
said that we had made a down payment of $700 million toward the 
maintenance backlog in legislation we have done. Correct?
    Ms. Stevenson. Yes, sir.
    Senator Burr. You do not dispute the fact that the National 
Park Service lists $9 billion worth of current maintenance 
backlog.
    Ms. Stevenson. I am not sure of the exact number, Senator. 
I am sorry.
    Senator Burr. Let me just suggest we have made an effort to 
pay down less than 10 percent of the current maintenance 
backlog and the consideration that we would increase any new 
units. I appreciate the fact that the Park Service is not 
supportive of doing that right now. My hope would be that we 
would also use the same threshold as it relates to expansion of 
parks.
    Now, specifically with the Coltsville National Park, even 
though the administration is not supportive of it, do we 
understand what the costs associated with creation of that new 
park would be?
    Ms. Stevenson. No, we do not, Senator. The reason we do not 
is because we are not sure of what the management 
responsibilities of the Park Service would be at Coltsville. We 
think the Colt factory is an integral part of whatever 
interpretation we might do. The large park land there 
apparently could be transferred to the Park Service. But that 
leaves a lot of other structures that are within the boundaries 
of the proposed park without a decision being made on the 
management responsibility.
    Senator Burr. Is it safe to say that if you do not know the 
management responsibilities, it is impossible to then calculate 
how many National Park Service employees it would require to 
man a facility like this?
    Ms. Stevenson. I think that is a fair statement.
    Senator Burr. Great.
    Let me go to S. 3261, the Marsh-Billings-Rockefeller 
National Historical Park boundary expansion. Can you give the 
National Park Service's estimates for the funds needed to 
acquire that additional 154 acres?
    Ms. Stevenson. I believe it is $10 million, and it would 
cost--sorry. That is the wrong information.
    I am sorry. It is way below that. It is $1.2 million, with 
improvements of $1.6 million, and operating costs of $124,000 a 
year increase. So it is not very much operating cost increase.
    Senator Burr. Let me move, if I could, to the Pinnacle 
National Monument. Can you please explain why a redesignation 
is needed on that property?
    Ms. Stevenson. A couple of reasons. We have been seeking to 
clarify the various designations of units of the National Park 
System for some time now. It is a very confusing system for the 
general public. I cannot remember now exactly how many 
designations there are, but there are national historic parks, 
national monuments, national rivers, so on. It is very 
confusing for the public. They do not know are they really 
national parks, or are they really not national parks. We treat 
them all the same.
    To some people, the designation of ``national park'' is the 
highest kind of designation you can get in spite of the fact 
that, as I said, we treat them all the same, depending on the 
legislation, of course. So many people seek to have parks 
renamed as national parks because they believe this is a higher 
designation. So that is why people ask for it. I am not sure of 
the motivation of this particular park, but that is in general.
    Senator Burr. Let me ask you how, if at all, would the cost 
associated with the monument's redesignation be affected?
    Ms. Stevenson. I do not think there is going to be much 
cost. Anything that is online, of course, is very small cost. 
We would not replace signs until they are worn out, which we do 
on a regular basis anyway. Any interpretative materials would 
be done only when they are reprinted and so on. So really, 
there is not a lot of cost associated with it.
    Senator Burr. From a personnel standpoint, from a property 
maintenance standpoint, there is no change with the 
redesignation from monument to park.
    Ms. Stevenson. No, sir. Negligible cost.
    Senator Burr. The last one and it is on Mr. Schutt's 
microhydro project. I am only curious to know whether there is 
any similar microhydro system currently in place in other 
locations than the Denali National Park. I will ask both of 
you.
    Ms. Stevenson. You may go first.
    Mr. Schutt. Sure. Thank you, Senator. There are two other 
small microhydro projects within Denali National Park. One is 
owned by the Park Service at the Eielson Visitors Center. I 
believe that system was installed about 2 years ago. Then there 
is a system at another back country lodge, also an inholding in 
the Kantishna area, called Camp Denali that is very similar to 
the system we are attempting to build, and that has been in 
place for several decades.
    Senator Burr. A question as it relates to the Park 
Service's microhydro system. Are we asking for a different 
permitting timeline for this one than what the Park Service 
exercised on theirs? I understand the constraints you are under 
on the grant. I would like to know how much we are bending, if 
at all, from the normal permitting period.
    Ms. Stevenson. We would not have to grant ourselves a 
permit to do the microhydro. Our concern about this is making 
sure that we comply with NEPA before we do this. We are 
committed to working as fast as we can. But we do not want to 
do anything without complying with NEPA.
    Senator Burr. I thank the chair.
    Senator Udall. Thank you, Senator Burr.
    Ms. Stevenson, let me pick up on a couple of the questions 
that Senator Burr directed your way, and I will start with 
Pinnacle National Park. I do not want you necessarily to repeat 
yourself, but I think it is important to have this discussion 
which has been ongoing throughout almost the life of the Park 
Service.
    Does the Park Service have any criteria for whether an area 
should be designated as a national park as opposed to the many 
other designations used in the National Park System? If so, is 
the Pinnacle site consistent with that criteria?
    Ms. Stevenson. The Pinnacle site is consistent with the 
designation as a national park because of its significance in 
geology and in species, the number of species and kinds of 
species that are there.
    Senator Udall. Is it fair in a simplistic way to say that 
generally national parks are expected to have more than one 
unique or special feature, say, as opposed to some areas that 
are designated as national monuments? I am getting into the 
criteria discussion that is important to have.
    Ms. Stevenson. Yes, I understand. You know, we are not 
really talking about the distinction in the language that 
establishes a national park or a national monument. What we are 
talking about the appellation that is used by the public. We 
would not seek to change the underlying legislation. It would 
be only the national park part of the title.
    Senator Udall. Back to the proposed Coltsville National 
Historical Park, I understand there was a companion bill in the 
House. It was modified following your agency's testimony. Do 
those modifications address concerns you have raised today?
    Ms. Stevenson. They go a long way toward allowing us to 
analyze both the financial feasibility, as well as the 
suitability, of management of any or all of the park. Yes.
    Senator Udall. Next, the Marsh-Billings-Rockefeller 
National Historic Site.
    Ms. Stevenson. Yes, sir.
    Senator Udall. Your testimony notes that the King Farm--and 
I want to quote your testimony--``would enable the park to 
better conserve and interpret the history and evolution of 
conservation stewardship in America.'' End of quote. You have 
also noted that the Park Service's preliminary findings 
indicate that the proposed acquisition is consistent with the 
Park Service's criteria.
    What additional information does the Park Service need to 
decide whether the proposed addition is appropriate, and how 
long do you anticipate it would take you to reach that 
decision?
    Ms. Stevenson. I understand that we are in the final stages 
of making a determination, that it is looking very positive, 
and that we anticipate a final determination will be made by 
the end of this calendar year.
    Senator Udall. Thank you for that clarification.
    My last question to you is tied to your testimony on S. 
3565, which Senator McCain earlier made some comments about. In 
your written testimony, it says the BLM supports the goals of 
S. 3565, but cannot support the legislation as currently 
drafted. I think I heard you say in your testimony you support 
the legislation. Would you clarify for the record?
    Ms. Stevenson. The Department supports the legislation with 
the understanding that there will be a couple of proposed 
improvements.
    Senator Udall. OK.
    Do the BLM representatives here find that explanation 
adequate? Would you like to just join us----
    Ms. Stevenson. Excuse me. Yes, apparently I have----
    Senator Udall. Ms. Stevenson, I do not want to----
    Ms. Stevenson. No, no, no. I appreciate that.
    Senator Udall [continuing]. Override your testimony.
    Ms. Stevenson. Apparently I have made some error here.
    Mr. Spisak. Yes.
    Senator Udall. Would you identify yourself for the record? 
Then please feel free to comment.
    Mr. Spisak. Tim Spisak, Acting Assistant Director for 
Minerals and Realty Management, Bureau of Land Management.
    It just sounded like the two portions were flip-flopped. We 
support the goals of S. 3565 and we support S. 3616 outright. I 
think you just flip-flopped the testimony on it. No problem.
    Ms. Stevenson. My mistake. I am sorry.
    Senator Udall. No. This is why we hold hearings. I have 
never made any mistakes in my life, Ms. Stevenson.
    [Laughter.]
    Senator Udall. I have never flip-flopped either.
    [Laughter.]
    Ms. Stevenson. Thank you, Mr. Chairman.
    Senator Udall. Let me turn to Mr. Schutt, and then, Mr. 
Smith, I will turn to you for my final set of questions.
    I think I am going to restate what you had a chance to say 
and Ms. Stevenson as well. But you heard that the Park Service 
believes the permitting process should be discretionary and 
subject to compliance with NEPA and other environmental and 
cultural protection laws. Are you comfortable addressing the 
issues that the Park Service has recommended?
    Mr. Schutt. We certainly have a challenging schedule, Mr. 
Chairman, and that is our primary concern in the use of the 
grant funds. We are 1 year from needing to have a complete 
project, and things obviously take time. So that is our primary 
concern. We certainly support compliance with NEPA and 
addressing other concerns of all stakeholders in the project. 
Assuming we can do all of those things in the timeframe, I hear 
a commitment and we have certainly had a commitment from the 
local Park Service staff at Denali National Park, but we do 
have a very grave concern on the timeframe.
    Senator Udall. On the timeframe, and that is really the 
intent and the purpose of what you are proposing is to provide 
additional flexibility in the timeline so that you can take 
advantage of the grant, also do the work that needs to be done.
    Mr. Schutt. It is a very short construction season on top 
of the compressed timeframe that we have.
    Senator Udall. Exactly. I have spent time in Denali 
National Park both in the north and south sides and had the 
great privilege actually to stand atop Denali at one point in 
my climbing career. It is a quite crown jewel really of the 
American National Park System, and I have to regrettably 
acknowledge that Senator Begich probably has the highest 
mountain in the United States.
    [Laughter.]
    Senator Udall. Of course, the people who live on those 
landscapes and who have lived there for many centuries also 
have a lot to teach us and an important role to play in those 
landscapes. But this is exciting to hear about what you are 
doing.
    Mr. Schutt. I look forward to working with you further.
    Mr. Smith, let me turn to you and talk about a Colorado-
centric piece of legislation. I thank you for your detailed 
testimony on the Crystal Lakes situation. I want to also thank 
you for your offer to work with this subcommittee, Congressman 
Markey, and the Crystal Lakes landowners to find a solution.
    As you know, it is terribly important to those landowners 
who, through no fault of their own or frankly the Forest 
Service's, find themselves in a really tight spot. I worry that 
it may be already too late to help those landowners who are now 
in foreclosure and unable to sell their property due to the 
land dispute. So it is really important that we find a 
solution. I want to take you up on your offer to find a 
solution. Let us get this fixed.
    Can you describe for me, in that spirit, the Forest 
Service's actions to resolve the boundary dispute since the BLM 
discovered the erroneous survey in 2003?
    Mr. Smith. Yes. Thank you, Mr. Chairman. We have been 
working with the developer. We have been working with the 
subdivision owners, and we have been working with a lot of 
individuals trying to resolve the situation. There are 
certainly opportunities if we can't resolve it on the Small 
Tracts Act, other opportunities. There are opportunities for 
land exchange. There are opportunities even for a short sale 
with the developer or something.
    I think the biggest problem for us that we are trying to 
help the landowners--at the same time, the cost, if we have to 
deal with each one of those surveys individually--it becomes 
almost cost-prohibitive for the Forest Service. It is estimated 
each one of those will be about $17,000 to resolve, which if 
you add 20 of them, that is about $320,000 just to do the 
survey work. So what we are looking for is a way out that we 
can help the landowners, at the same time save some money for 
the taxpayers.
    Senator Udall. That is real money, obviously. I was trying 
to think of a way to make those surveys less expensive. No idea 
comes to mind immediately, but I do underline my call to 
finding a solution. Let us get this fixed. I think this hearing 
draws needed attention to the dilemma we face and particularly 
the plight of these landowners.
    Mr. Smith. Yes. It is our intention to try to resolve it as 
quickly as possible.
    Senator Udall. I take you at your word. I look forward to 
moving ahead and making this situation one that we can look 
back on and say, hey, we figured out how to stand on the side 
of the taxpayers and protect the interests of the landowners in 
the Crystal Lakes Subdivision as well.
    Mr. Smith. Thank you, Mr. Chairman.
    Senator Udall. Thank you again. I want to thank the panel, 
and Mr. Schutt, thanks for coming to the Nation's capital. I 
look forward to visiting your wonderful State again in the 
future at some point.
    With that, let me just make note that some members of the 
committee may submit additional questions in writing, and if 
so, we may ask you to submit answers for the record. We will 
keep the hearing record open for 2 more weeks to receive any 
additional comments.
    This hearing is adjourned.
    [Whereupon, at 3:17 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    Responses of Gregory C. Smith to Questions From Senator Barrasso
                              on h.r. 1858
    Question 1. It is my understanding that the landowners have not 
pursued redress from the developer nor the surveyor in the courts, is 
that your understanding?
    Answer. The FS is not aware of any attempt by the affected Crystal 
Lakes private landowners to resolve the encroachment issue with the 
subdivision developer or their respective title insurance companies, or 
filed a complaint with the Colorado Department of Regulatory Agencies, 
State Board of Licensure for Architects, Professional Engineers and 
Professional Land Surveyors seeking to have the private land surveyor 
correct his survey. The surveyor who subdivided Crystal Lakes held a 
Professional Land Surveyor license (PE-PLS-5028) issued by the Colorado 
Board of Licensure for Professional Engineers and Land Surveyors for 
the State of Colorado. No complaint is on file with the Colorado Board 
of Licensure in the matter of the erroneous private land survey 
subdividing Crystal Lakes. We do not believe that one of the 
responsibilities of the Forest Service is to rectify this trespass and 
to date those who have profited from the errors have not been held 
accountable.
    One of the affected landowners did file a protest of the 2005 
Bureau of Land Management (BLM) land survey with the Colorado State 
Office of the BLM. That protest was denied by the BLM on the grounds 
that there was no evidence the BLM 2005 survey was incorrectly made, 
while there was substantial evidence the private land surveyor did not 
follow correct surveying procedures. The landowners have not 
administratively appealed BLM's denial of their survey protest to the 
Interior Board of Land Appeals (IBLA).
    The Forest Service is not aware that the affected landowners have 
entered into any discussion with either the surveying company, James H. 
Stewart and Associates, or the developer, or that they have sought 
redress through the Colorado State Court System. In 2006, the Forest 
Service and BLM staff met with the Crystal Lakes developer Don 
Weixelman and the affected landowners to discuss land exchange options. 
The Forest Service continued the dialogue into 2007 with the affected 
landowners and the developer through letters and phone calls. However, 
the developer and the affected landowners did not agree to the standard 
appraisal process, and the developer and the affected Crystal Lakes 
landowners could not reach agreement and ultimately they did not submit 
a proposal for a land exchange to the Forest Service.
    Question 2. The Forest Service has hundreds of faulty surveys. If 
we just give the land to the trespassing landowners every time a 
trespass is identified and then paid for it using recreation fee 
receipts; does the agency have sufficient recreation fee receipts to 
cover the potential costs?
    Answer. The Federal Land Recreation Enhancement Act (FLREA) 
provides that fees collected under the Act are to be used primarily at 
the unit where the fees were collected to help in the improvement, 
maintenance, and management of specific recreation sites. A small 
percentage of the fees are available for expenditure on an agency-wide 
basis. In either case, the FLREA specifies that fees may only be 
expended for repairs, interpretation, habitat restoration, law 
enforcement, operations or capital costs, fee management agreements or 
a reservation service, and administration costs. The use of recreation 
fee revenue is intended to benefit recreation users who pay the fee. 
Diverting recreation fees for other purposes would increase the 
antipathy toward recreation fees, a purpose and need Congress has 
recognized.
    The cost to resolve hundreds of faulty and incorrectly made private 
land surveys within or adjoining National Forest System lands is 
unknown because it takes a correctly made land survey to find these 
kinds of problems. While the Forest Service does not have an inventory 
of faulty private land surveys, the number is expected to be 
significant. The Forest Service would have to survey and resurvey 
nearly 276 thousand miles of NFS boundaries to inventory and quantify 
the number of erroneous private land surveys. At the current funding 
level the Forest Service annually surveys and maintains approximately 
2,500 miles of NFS boundaries.
    Question 3. If this legislation were modified to require a 
``finding of public interest'' would the agency support the inclusion 
of such a provision in H.R. 1858?
    Answer. This bill, as currently written, would require without 
consideration the conveyance of National Forest System (NFS) land to 
resolve a private encroachment caused by an erroneous private land 
survey. In doing so, the Forest Service is concerned about the 
precedent this might set as an approach for resolving numerous trespass 
and encroachment cases throughout the National Forest System. For these 
reasons, the Forest Service could not support a finding that the 
conveyance of the public's land without any consideration for its 
market value would be in the public interest. The Forest Service 
currently has the authority to resolve such cases through the Small 
Tracts Act of 1983, which provides for a market-based return to the 
public for any NFS land being conveyed to resolve a private 
encroachment on NFS lands.
    Question 4. Would the agency recommend a positive finding of public 
interest in this case, if it were required in the legislation?
    Answer. The Forest Service could not make a finding of public 
interest because the bill as written requires conveyance of National 
Forest System lands to private landowners without consideration. The 
encroachments occurred because of an erroneous private land survey 
subdividing the Crystal Lakes property. It was incumbent upon the 
private professional land surveyor and the private developer who 
subdivided Crystal Lakes to ensure a correct land survey and survey 
plat was prepared recording the dimensions and boundaries for the 
subdivided parcels. Therefore, the Forest Service could not make a 
determination of public interest for a very narrow and limited 
community.
      Response of Gregory C. Smith to Question From Senator McCain
                              on h.r. 1858
    In regards to H.R. 1858, I am aware of other incorrect surveys that 
have been completed in other national forests, specifically the 
Coconino National Forest. Almost twenty property owners in the 
Mountainair Subdivision in Coconino County, Arizona, were informed that 
they were encroaching on forest service land due to an incorrect survey 
performed in the 1960's. This unfortunate situation includes 
approximately 2.5 acres of land. The individuals encroaching on federal 
land have paid for the property and paid property taxes on the 
property. Due to other situations, the Forest Service may consider 
including other boundary corrections in one piece of legislation.
    Question 1. Would such legislative language, perhaps added to H.R. 
1858, save the Forest Service time and money by avoiding individual 
acquisitions with these property owners?
    Answer. There is existing authority to resolve the Coconino 
situation under the Small Tracts Act (16 U.S.C. 521c-521i) and 
legislation is not required. The Small Tracts Act requires payment of 
consideration to the United States for resolution of encroachments, and 
the affected landowners on the Coconino National Forest are willing to 
abide by the requirements of that Act by paying appropriate 
consideration. The Crystal Lakes situation is different. There the 
affected landowners are unwilling to pay any consideration for the 
National Forest land that has been encroached upon, and they have 
declined to pursue resolution through the Small Tracts Act. We do not 
believe that legislation like H.R. 1858 is the appropriate remedy for 
resolution of these kinds of encroachments, particularly when the Small 
Tracts Act is an available authority.
                                 ______
                                 
  Responses of Katherine H. Stevenson to Questions From Senator McCain
                               on s. 3565
    Question 1. The BLM's 2009 Record of Decision that approved the 
shooting range has been appealed to the Interior Board of Land Appeals. 
How long does it typically take for the Board to take action on an 
appeal like Mohave?
    Answer. The Department cannot predict the time frame for any 
decision made by the Interior Board of Land Appeals (IBLA).
    Question 2. I understand that the Fort Mojave Indian Tribe (FMIT) 
didn't engage in formal consultation with the BLM until 2003- 5 years 
after the public planning process began. When they finally decided to 
participate in formal consultation, both tribes repeatedly indicated 
they would oppose any shooting range in the Lower Colorado River Valley 
and would only consider lands which had already been rejected by the 
Arizona Game & Fish Commission because of encroachment concerns.
    Your testimony indicates the Administration wants to continue 
discussions with the FMIT. What could BLM possibly hope to achieve with 
additional tribal consultation now?
    Answer. Continued consultation with concerned Tribes is stipulated 
in the amended Environmental Assessment for the proposed shooting 
range. Consultation will provide the Tribes with an opportunity to 
comment on the selection and installation of measures designed to 
mitigate possible adverse effects to the Boundary Cone Butte historic 
property, as stipulated in the Environmental Assessment. In addition, 
the BLM wishes to continue consultation with concerned Tribes to 
determine if there are specific times, dates, or seasons of tribal use 
of Boundary Cone Butte. This determination will provide the Tribes with 
an opportunity to negotiate altered hours of operation or temporary 
closure of the shooting range facility during important periods of 
tribal use of the Boundary Cone Butte historic property for traditional 
cultural or ceremonial purposes.
    Question 3. The sacred Boundary Cone Butte is nearly 3 miles from 
the proposed shooting range on Boundary Cone Road. Even if the Butte 
were to be added to the Historical Register (as the Tribe has 
requested) does the BLM believe sacred sites also require over 3 miles 
of buffer space in order to be protected from public use?
    Answer. The BLM determined that Boundary Cone Butte is eligible for 
inclusion on the National Register of Historic Places (NRHP). The 
Agency also determined that noise and other activity associated with 
the operation of the proposed shooting range at the Boundary Cone Road 
location may have adverse effects on some of the characteristics that 
make Boundary Cone Butte eligible for the NRHP. Adverse effect is 
determined on a case-by-case basis, and the BLM cannot generalize about 
what ``buffer space'' would be appropriate for a different property in 
a different setting that may be affected by a different undertaking.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

Statement of Robert R. Woodhouse, Vice-Chairman, Arizona Game and Fish 
                         Commission, on S. 3565
    Mr. Chairman and distinguished members of the subcommittees, I am 
Robbie Woodhouse, Vice-Chairman of the Arizona Game and Fish Commission 
(Commission). Thank you for the opportunity to provide you with this 
written statement for the official hearing record regarding Senators 
John McCain and Jon Kyl's S.3565, which would provide the needed land 
conveyance for the establishment of a public shooting facility in 
Mohave County, Arizona. The Commission supports S.3565 and its ultimate 
goal for safe recreational shooting in Arizona, and a responsible 
method for attaining that end.
    Recreational shooting and sport hunting have always been a family-
oriented outdoor activity in Arizona. As the population of the state 
continues to grow, the number of citizens engaging in recreational 
shooting at formal and informal shooting ranges or dispersed shooting 
areas has increased significantly. The population of Arizona has more 
than doubled from 2.5 million in 1997 to over six million today. 
Studies show that 20% of Arizona residents participate in recreational 
shooting activities. Outdoor recreationists with multiple interests are 
competing to use public lands adjacent to large metropolitan areas, as 
well as expanding rural communities. As a result of this increased use, 
unresolved conflicts have arisen between public agencies, landowners, 
recreational shooters and other recreationists. There are population 
centers in Arizona that currently do not have reasonable access to a 
public shooting range. As a result, the impact of dispersed shooting 
and associated issues such as littering, shared use of increasingly 
scarce public lands and resource damage continue to represent 
challenges.
    The Commission promotes and supports the development of safe, 
accessible target and sport-shooting facilities by taking a leadership 
role in partnering with ranges, industry, and communities. 
Additionally, the Commission provides statewide range development 
assistance through a variety of technical, educational and financial 
resources consistent with its goal to preserve shooting opportunities 
for present and future generations.
    The Commission currently owns and operates seven shooting ranges in 
Arizona and has supported countless others through development grants, 
and technical and engineering support. The Commission is committed to 
its continued support for shooting range development in Arizona.
    With the major population increase in the tri-state area (Arizona, 
Nevada and California), members of the sport shooting community have 
expressed a strong interest in developing a new multi-purpose shooting 
facility to replace the one that was closed in 1998 due in large part 
to urban encroachment. At present, due to the lack of a formal shooting 
facility, shooters have been forced to utilize makeshift shooting 
locations which, has become a significant source of concern for public 
and private landowners, as well as, other outdoor recreationists. S. 
3565 provides a responsible alternative for the shooting community and 
other stakeholders interested in the range development process.
    To accommodate the needs of the shooting community including 
various shooting disciplines, hunter education and law enforcement 
training needs, the Commission proposed the development of a formal 
shooting complex in the Tri-State area. The complex would include 
various rifle, pistol and shotgun ranges, a hunter education range and 
a law enforcement training area.
    Since the closure of the only public shooting range in the area, 
the Commission has worked with the Bureau of Land Management (BLM) and 
the local shooting community for the past 12 years to identify a new 
site for a range. BLM has recently approved an administrative land 
conveyance for range development under the Recreation and Public 
Purpose Act (RPP); however this method has created a logjam of 
administrative appeals. If this bill were approved by Congress, it 
would expedite the land conveyance, thereby allowing the Commission to 
commence range development immediately.
    S. 3565 is also environmentally and culturally responsible. 
Provisions under this measure provide for compliance with the National 
Environmental Policy Act (NEPA) and the National Historic Preservation 
Act (NHP). The Environmental Assessment/Plan Amendment Record of 
Decision dated February 8, 2010 has been determined to be legally 
sufficient to meet these purposes.
    The Commission has participated in the National Historic 
Preservation Act--(Section 106) process, when appropriate, since 2002. 
The Commission has fully supported BLM's efforts to elicit participant 
input and cooperation. These efforts have included numerous meetings 
and field trips with BLM, the Fort Mohave Tribe, SHPO and The Advisory 
Council on National Historic Preservation. Since the inception of this 
process, the Fort Mohave Tribe has continually expressed their 
opposition of the proposed project to BLM and the Commission.
    In 2004, the Commission participated in a formal Alternative 
Dispute Resolution (ADR) process, which was sponsored by the BLM to 
seek resolution to the Tribes' concerns. During this process, the 
Commission eliminated its requirement that shooting range development 
be in close proximity (within thirty minutes) to Bullhead City. The 
Commission requested that the Tribes identify alternatives to the 
currently proposed Boundary Cone site. Ultimately, they selected seven 
alternative sites for evaluation. After evaluation by the BLM and 
Tribes, all were eventually eliminated because of Tribal concerns and 
some access issues.
    The result of these requisite and good-faith efforts failed to 
produce any alternative sites for development, and the Boundary Cone 
site remains the only viable option. The Commission believes that all 
due process requirements under Section 106 and NEPA have been met.
    Also, if S. 3565 is approved by Congress, it is the intent of the 
Commission to continue working with all interested parties to develop 
the range in the most professional manner possible incorporating 
environmental management, noise abatement and cultural considerations.
    Again, on behalf of the Arizona Game and Fish Commission, I would 
like to thank you for the opportunity to submit this written statement 
in support of S. 3565. I would also like to thank Senators McCain and 
Kyl for sponsoring this legislation and for their continued commitment 
to responsible recreational shooting in Arizona.
                                 ______
                                 
                                  Fort Mojave Indian Tribe,
                                     Needles, CA, October 13, 2010.
Hon. Ron Wyden,
Chair, Subcommittee on Public Lands and Forests, Energy and Natural 
        Resources Committee, U.S. Senate, 304 Dirksen Senate Office 
        Building, Washington DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands and Forests, Energy and 
        Natural Resources Committee, U.S. Senate, 304 Dirksen Senate 
        Office Building, Washington DC.
RE: S. 3565, the Mohave Valley Land Conveyance Act of 2010

    Dear Chairman Wyden: The Fort Mojave Indian Tribe, a federally 
recognized tribe that has lived since time immemorial along the Lower 
Colorado River, objects strenuously to S.3565 and urgently requests 
that it not be approved. S.3565 is an attempt to destroy a deeply 
significant part of our ancestral homeland for the convenience of a few 
special interests in the local community. It proposes that the Senate 
of the United States adopt a position that is oppressive of our race, 
offensive to our religion, and dismissive of our history. It also 
proposes that the Senate ignore the wisdom of its own ancestors, in 
effect declaring the environmental and historic preservation laws 
enacted by Congress in the 1960s and thereafter null and void in order 
to accommodate the supporters of the unnecessary project it will allow 
to go forward.
    The Mojave people have lived along both sides of the Colorado River 
on lands that are now within the States of Arizona, California and 
Nevada. We are the Aha Makav, the people of the river. The lands along 
the river are our ancestral home; they are integral to our culture and 
central to our religious practices. S.3565, if enacted, will 
substantially burden the religious practices of our federally 
recognized Indian tribe for the convenience of a small group of 
recreational rifle shooters.
    S.3565 would direct the Secretary of the Interior, notwithstanding 
his trust responsibilities to the Mojave people and his Congressionally 
mandated responsibilities under federal environmental and historic 
preservation laws, to convey to the Arizona State Game and Fish 
Commission a parcel of land now within the State of Arizona, for use as 
a recreational shooting range. Towering directly over the land that 
would thus be conveyed out of federal ownership is a rocky peak known 
to you as Boundary Cone Butte. In our language this peak is Avi Vasqui, 
meaning ``The Sharp Mountain,'' and it is a place of deep meaning to us 
and our elders.
    Much of what we know and believe about Avi Vasqui is held 
exclusively by our elders. To share much of this information with the 
public would dilute the mountain's spiritual power and be dangerous 
both to the elders and to those receiving the information. What we can 
say is that Avi Vasqui is our time piece, measuring our Tribe's life 
span. When Avi Vasqui is gone, the Mojave people will be gone as well. 
While it exists, it plays critical roles in our cultural lives. In our 
traditional stories and songs Avi Vasqui is an important landmark, and 
the home of one of our ancient chiefs. Our ancestors left signs of 
their ritual use of Avi Vasqui in the form of rock art and ceremonial 
circles. We are taught that such circles were and still are points of 
entry into other dimensions of reality, into the spirit world. Our 
feelings of reverence at Avi Vasqui are precious to us, and connect us 
to the higher power. To construct and operate a shooting range near the 
foot of Avi Vasqui will fundamentally disrupt our spiritual 
relationships with this landmark, and hasten the decline of our 
traditional religion. In an effort to protect Avi Vasqui and our 
relationships with it, we have cooperated with the Bureau of Land 
Management (BLM), the Arizona Game and Fish Department (AGFD) and 
others, seeking alternative places for those who desire the shooting 
range to carry out their recreational activities. Such places exist. 
For example, one location identified during our consultations with BLM 
is a state-owned parcel that meets all the criteria for the shooting 
range, presents fewer environmental concerns, and is convenient to the 
shooting community. Why was this location not analyzed? Because the 
AGFD would have to pay the Arizona State Land Office for it, whereas it 
believes it can get federal land free by act of a compliant Congress.
    In the course of our consultation under Section 106 of the National 
Historic Preservation Act, the cultural significance of Avi Vasqui has 
been recognized with the finding that it is eligible for the National 
Register of Historic Places. The Secretary of the Interior has received 
comments from the Advisory Council on Historic Preservation (attached) 
strongly recommending that BLM explore alternatives to the project as 
designed, because of the project's impacts on Avi Vasqui and our 
cultural values. The Advisory Council found that ``there is a basic 
incompatibility between the land uses of a shooting range and an area 
where traditional cultural use would be disrupted by the audible 
intrusions of repeated gunfire.'' ``The construction of a shooting 
range in this location,'' the Council went on, ``would clearly result 
in disruptions to traditional cultural use of the area and diminish 
elements of the butte's integrity as a historic resource, such as the 
visual setting and feeling of the area.''
    We participated in BLM's consideration of the project under the 
National Environmental Policy Act, too, though we objected--as did the 
Advisory Council--to the narrow range of alternatives BLM considered, 
and their rejection of alternatives on economic grounds. We were 
appalled when BLM determined that the project would not have a 
significant effect on the quality of the human environment. We have 
appealed BLM's decision, and our appeal is now being considered by the 
Interior Board of Land Appeals (IBLA). S.3565 would pre-empt the IBLA's 
consideration of our appeal, short-circuiting the normal process 
maintained by the Department of the Interior for addressing concerns 
about Interior agency decisions--all to accommodate a few local 
recreational shooters who want a gun club close to their homes, 
provided for free by the federal government.
    The Mojave people have lived in our homeland from the beginning of 
time, and today we continue to believe in the ways that relate and 
connect us to the land, water, mountains and creatures of the earth. 
Our religion honors such things; we are instructed to live in harmony 
with them and seek balance when harm is upon us. The valley is our home 
and we will do everything we can to protect the places that our 
ancestors taught us have special meaning. No one has the right to take 
the use of such places away from us. Today, we share and teach our 
people of these places, that they can grow strong in their spiritual 
connection with all things. We mature into these responsibilities and 
work toward the day when we may be fortunate enough to arrive at full 
understanding of it all as we continue our life here on earth. Avi 
Vasqui is one of those places that tie into the greater teachings that 
we struggle to understand. The United States government inherited these 
special places when it took our lands away; we expect the government to 
preserve and protect them, and to respect the value that we place on 
them. The government has a long-established trust responsibility to the 
tribes, but when we have spoken to the federal agency of our concerns 
regarding this project, the result is what is now before you--S.3565.
    We do not oppose letting the residents of the area have a shooting 
range, but Arizona's Mohave County already has two such ranges, one in 
Golden Valley and the other in Lake Havasu City. There is also a 
shooting range in Needles, California. Constructing the range that 
would desecrate Avi Vasqui is ``justified'' by only two things; it 
would relieve some local shooters of the need to travel on the newly 
constructed, federally funded roads to Golden Valley and the land can 
be obtained for free.
    Besides proposing to desecrate our sacred site and ignore the U.S. 
government's trust responsibility toward our tribe, S.3565 proposes to 
casually substitute the unsubstantiated judgments of its authors for 
the deliberations, analyses, and consultations required by two long-
established statutes--the National Environmental Policy Act (NEPA) and 
the National Historic Preservation Act (NHPA). Both these laws are 
designed to cause federal agencies to ``look before they leap''.to 
consider the effects of their actions on the human environment in the 
case of NEPA and on historic places in the case of NHPA. Both laws, and 
the regulations implementing them, require thoughtful analysis, 
consultation, and consideration of alternatives. S.3565 peremptorily 
and arbitrarily declares both NEPA and NHPA (and all other laws) to be 
satisfied and then insulates this unsubstantiated finding of ``fact'' 
from judicial review. S.3565 essentially tells the Secretary of the 
Interior: ``Do NOT look before you leap; do NOT fully consider the 
environmental impacts of your decision, do NOT even let your IBLA 
review BLM's NEPA decision as it does other decisions appealed by 
citizens, because we, the sponsors of this bill, have decided that we 
cannot let mere environmental impacts, mere historic places, or mere 
tribal spiritual values burden a small group of recreational shooters 
in Arizona with the requirement to drive a few miles or pay a few 
dollars in order to shoot their rifles.''
    We ask you please, in recognition of your responsibility to Native 
American people and in the name of common sense and common decency, to 
oppose S.3565.
            Sincerely yours,
                                               Shane Lewis,
                                                     Vice Chairman.
                                 ______
                                 
                                   Hualapai Tribal Council,
                             Peach Springs, AZ, September 28, 2010.
Hon. Ron Wyden,
Chair, Subcommittee on Public Lands and Forests, Energy and Natural 
        Resources Committee, U.S. Senate, 304 Dirksen Senate Office 
        Building, Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands and Forests, Energy and 
        Natural Resources Committee, U.S. Senate, 304 Dirksen Senate 
        Office Building, Washington, DC.
RE:S. 3565, the Mohave Valley Land Conveyance Act of 2010; Opposition 
of the Hualapai Tribe Due to Impacts on Boundary Cone Butte

    Dear Chairman Wyden: On behalf of the Hualapai Indian Tribe, we are 
opposed to S. 3565, captioned the ``Mohave Valley Land Conveyance Act 
of 2010.'' This bill is listed on the agenda for a hearing to be 
conducted by your Subcommittee on September 29, a hearing in which 
several other bills are also on the agenda. We ask that this letter be 
included in the record of that hearing.
    The Hualapai Tribe objects to S. 3565 out of concern for Wi 'vis'--
Kwi--va, known in English as Boundary Cone Butte, which is located on 
land currently under the jurisdiction of the Bureau of Land Management 
(BLM) in Mohave County, Arizona. Boundary Cone Butte holds religious 
and cultural importance for the Hualapai Tribe as well as for the Fort 
Mojave Indian Tribe. Because of its importance for both Tribes, 
Boundary Cone Butte has been determined to be eligible for the National 
Register as a traditional cultural property.
    The sanctity of Boundary Cone Butte is crucial to the ability of 
tribal religious practitioners to carry on traditional practices and to 
pass these traditions along to younger generations. The two Tribes are 
closely related to each other culturally, and Boundary Cone Butte is 
located in an area that each Tribe regards as being within its 
aboriginal homeland.
    For many years, the sanctity of Boundary Cone Butte has been 
threatened by a proposal to construct and operate a shooting range on 
nearby federal land. Earlier this year, on February 10, 2010, BLM 
issued a decision to convey 315 acres of federal public land to the 
Arizona Game and Fish Department (AGFD) for use as a shooting range. 
The proposed site for the shooting range is about two miles from 
Boundary Cone Butte. On the same date that the BLM decision was 
announced, BLM also issued a finding of no significant impact (FONSI) 
based on an environmental assessment (EA) for the proposed action. As 
documented in the EA, the operation of a shooting range so close to 
Boundary Cone Butte will cause adverse effects on Boundary Cone Butte, 
especially the noise from the shooting range, which will interfere with 
traditional religious and cultural practices by members of the two 
Tribes.
    The Hualapai Tribe and the Fort Mojave Indian Tribe have jointly 
appealed this decision by BLM. Our appeal is currently pending in the 
Interior Board of Land Appeals.
    S. 3565 would endorse the decision that BLM made on February 10, 
2010. But it would go further than that. It would take away our rights 
to file an administrative appeal of the decision and to seek judicial 
review after the appeal has been decided.
    We urge the Subcommittee to stop this bill.
    We ask that the Subcommittee take into consideration the fact that 
BLM made this decision despite a formal letter from the Advisory 
Council on Historic Preservation recommending that BLM not approve the 
Boundary Cone location. The Advisory Council recognized that the noise 
caused by a shooting range would severely disrupt the sanctity of 
Boundary Cone. In a letter to Secretary of the Interior Dirk 
Kempthorne, dated November 3, 2008, John Nau, III, Chairman of the 
Advisory Council, said, in part, ``There is a basic incompatibility 
between the land uses of a shooting range and an area where traditional 
cultural use would be disrupted by the audible intrusions of repeated 
gunfire.'' (Emphasis added.) In addition to the adverse effect on the 
integrity of Boundary Cone Butte and the characteristics that give this 
place historic significance, the audible intrusions of repeated gunfire 
will impose a burden on the exercise of religious practices by 
traditional tribal members.
    This proposed shooting range has been sought for more than a decade 
by Tri-State Shooting Recreation Center, Inc., which has been pushing 
BLM to approve this project. The Hualapai Tribe found out about this 
project after the first EA and FONSI were released in December 2003, 
and the Tribe has voiced its opposition since the Spring of 2004. The 
Fort Mojave Tribe had become engaged in the environmental review 
process in the fall of 2003. After the failure of BLM to engage in 
consultation with the Tribes early in the planning process, an 
alternative dispute resolution process was convened by the U.S. 
Institute on Environmental Conflict Resolution. The Tribes believed 
that process would yield a genuine, if belated, effort to consider 
alternative locations. Unfortunately, those efforts collapsed. The 
Hualapai Tribe believes that the failure of the alternative dispute 
resolution should have led BLM to a decision to prepare an 
environmental impact statement with a genuine search for alternative 
locations.
    We note that the EA and FONSI for this project were prepared for 
compliance with the National Environmental Policy Act (NEPA). This BLM 
decision is also subject to compliance with other federal environmental 
laws, including but not limited to the consultation process under 
section 106 of the National Historic Preservation Act (NHPA), as 
implemented through the regulations of the Advisory Council on Historic 
Preservation. 36 C.F.R. part 800. S. 3565 would decree, by act of 
Congress, that BLM's efforts to comply with NEPA and NHPA were 
adequate. We do not believe that BLM's efforts were adequate. These 
issues are currently on appeal before the IBLA.
    The EA attempts to convey the idea that BLM has made a genuine 
effort to fulfill its responsibilities under NHPA section 106. In fact, 
when the Section 106 process did not lead to the result that BLM 
wanted, BLM simply stopped trying to consult. After the failure of the 
alternative dispute resolution, BLM announced that it was 
``terminating'' the NHPA Section 106 process. Under the Advisory 
Council's regulations, when the federal agency terminates consultation, 
the head of the agency must formally request the Advisory Council to 
file comments on the proposed undertaking. After the Advisory Council 
comments, the head of the agency must ``take into account the Council's 
comments in reaching a final decision on the undertaking.'' 36 C.F.R. 
Sec.  800.7(c)(4). The requirements set out in the regulations are 
based on section 110(l) of the statute, 16 U.S.C. Sec.  470h-2(l), 
which provides that, for any proposed federal undertaking that 
adversely affects any property on or eligible for the National Register 
of Historic Places, if the federal agency has not entered into an 
agreement pursuant to the Advisory Council's regulations, then any 
decision to proceed with the undertaking despite the failure to resolve 
adverse effects must be made by the heads of the agency. The statute 
says, ``The head of the agency may not delegate his or her 
responsibilities pursuant to such section.''
    The letter purporting to document that the head of BLM actually 
considered the Advisory Council's comments was signed on January 16, 
2009, by the person who was acting as Director of BLM. Regardless of 
whether that action complies with the letter of the law, it subverted 
the spirit of the law. The rationale for elevating this decision to the 
head of the agency is to provide some degree of accountability--there 
is no accountability when an administration makes such a decision on 
its last working day in office.
    The fact that this proposal has even been given serious 
consideration by BLM and project proponents conveys the message to us 
that the decision-makers in BLM do not understand the importance of the 
Mojave Valley landscape for the cultural identity of each of the 
Tribes. The Tribes continue to believe that an acceptable alternative 
location could be found, if the proponents of the project really wanted 
to.
    We do not believe that the sanctity of a historic property that is 
important for our freedom of religion and cultural identity should be 
sacrificed to make way for a shooting range. We ask that this 
Subcommittee put a stop to S. 3565.
    Thank you for your consideration of our views on this matter.
Sincerely,
                                     Wilfred Whatoname, Sr.
                                                          Chairman.
                                 ______
                                 
  Statement of the Archery Trade Association, Association of Fish and 
            Wildlife Agencies and Bear Trust International*
---------------------------------------------------------------------------
    * A listing of other undersigned groups have been retained in 
subcommittee files.
---------------------------------------------------------------------------
    Dear Senators Bingaman and Murkowski: The undersigned 
organizations, representing millions of hunters and recreational 
shooters, are requesting that a hearing be held on S. 3565, the Mohave 
Valley Land Conveyance Act of 2010. The legislation will transfer land 
managed by the Bureau of Land Management (BLM) to the Arizona Game and 
Fish Commission for use as a public shooting range.
    The land transfer will bring to closure an exhaustive search and 
planning effort to relocate a shooting range in Bullhead City, Arizona 
that lost its site due to competition from other public land 
recreational uses. It has taken more than a decade to complete the 
process, which is now being threatened by administrative appeals that 
could delay the transfer for another several years.
    Our organizations have a long association with the BLM and the 
other federal land management agencies through memoranda of 
understanding (MOU) focused on protection and enhancement of 
sportsmen's access to federal public lands. One of the MOU initiatives 
is to find places for people to target shoot, to sight in their rifles 
for hunting season, and to receive instruction on the safe and 
responsible handling of firearms.
    Often, federal lands are the only places for people to participate 
in these traditional recreational activities. One of the first issues 
presented to the MOU partners in 1999 was the closure of the Bullhead 
shooting range. We have been strong supporters of, and have been 
monitoring closely, the BLM and state efforts to locate a new shooting 
range.
    A similar bill, H.R. 2100, has received a hearing and we are hoping 
your Committee will add S. 3565 to the hearing schedule as soon as 
possible so that Bullhead City can finally have a shooting range 
restored for the community's use and enjoyment.
                                 ______
                                 
Statement of Patrick D. Otto, President, Tri-State Shooting Recreation 
                Center Inc., Fort Mohave, AZ, on S. 3565
    Dear Honorable Chairman, I would like this to read into the record 
for the subcommittee hearing on S-3565. For the past 12 years we, the 
Tri-State Recreation Shooting Range organization have been trying to 
obtain land from the BLM for the purpose of building a shooting range 
to serve the needs of Bullhead City and Mohave Valley in Arizona, 
Needles, California and Laughlin, Nevada.
    We had a shooting range on BLM land in Bullhead City. In 1998 BLM 
asked us because of development encroachment to give up the existing 
range with the assurance that BLM would provide another location away 
from the rapidly developing area.
    BLM has made a creditable effort to identify land for this much 
needed facility. BLM efforts have been opposed from day one by the Fort 
Mohave and Hualapai Tribes. Two representatives of the respective 
tribes addressed the House Natural Resources subcommittee on National 
Parks, Forests & Public Lands on February 25, 2010 and stated directly 
to that body that they oppose any shooting range and refuse to make any 
compromise to a shooting range in Mohave Valley. BLM has been 12 years 
trying to find a location or mitigate any concerns the tribes have, to 
no avail.
    BLM finally after 12 years selected a site for the range and of 
course this BLM decision was immediately appealed to the Interior 
Bureau of Land appeals where it currently awaits action. We are 
confident because of the extensive documentation and countless good 
faith negotiations with the Tribes that IBLA will uphold the BLM 
decision. We are aware that when that occurs the Tribes will then turn 
to the judicial process to drag this proposal out for who knows how 
many additional years.
    In the meantime our public lands are being trashed by wild cat 
shooting. The safety of other public land recreational users 
compromised and our local law enforcement officers do not have a place 
to train or maintain their necessary fire arms skills.
    If the tribes oppose for specific reasons the site selected it 
would be one thing but they oppose all sites for a shooting range, this 
despite the fact that they have a range of their own on Tribal land in 
Mohave Valley.
    The Tri-State area, Arizona, Nevada and California have at present 
time a population of about 70,000 people and growing every day. It is 
essential for a whole host of reasons that a facility for the safe use 
of fire arms be provided.
    Senator John McCain with Senator Kyle as co-sponsor has introduced 
Senate Bill 3565, ``The Mohave Valley Land Conveyance Act of 2010''. 
Since our membership consists of Laughlin, Nevada residents and it is 
conceivable that Nevada residences as far north as Searchlight will use 
this facility, that you would consider co-sponsoring S3565 and help it 
move forward. It is evident without Congressional action this issue 
which has now drug on 12 years may not have a resolution in sight, not 
to mention the needless expense caused by both Tribes' unreasonable 
refusal to consider any resolution and to further inaccurately assume 
that we are insensitive to their tribal culture.
    We would really appreciate your help in resolving this urgent 
matter and thank you again for you consideration.
                                 ______
                                 
                                        Vermont Land Trust,
                                          King Farm, Woodstock, VT.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Energy and Natural Resources Committee, U.S. 
        Senate, Washington, DC.
RE: S. 3612--Proposal to Add the King Farm to the Marsh-Billings-
Rockefeller National Historical Park in Woodstock, Vermont.

    Dear Senators Bingaman and Murkowski, Thank you for this 
opportunity to submit written testimony in support of S. 3612. My name 
is Gil Livingston. I am the President of the Vermont Land Trust, a 
statewide land conservation organization that in its 33-year history 
has helped conserve more than 500,000 acres of productive farm and 
forestland, wildlife habitat, recreational properties, and land 
important to communities throughout the state of Vermont. In 1987, as a 
result of a bequest from Francisca King Thomas, VLT made one of its 
earliest and most significant acquisitions, the historic property known 
as the King Farm in Woodstock, Vermont. The King Farm is an outstanding 
example of an early 19th century Vermont hill farm, and is now listed 
on the National Register of Historic Sites.
    When Francisca King Thomas signed her will in the early 1980s, the 
Vermont Land Trust was a regional organization known as the 
Ottauquechee Regional Land Trust with its headquarters located in 
Woodstock. The establishment of the Marsh-Billings-Rockefeller National 
Historical Park was more than a decade in the future. Because 
Francisca's objective was to assure that the property would forever 
remain in agricultural, forestry, educational, and conservation use, 
VLT was the logical recipient of her bequest at the time.
    Since 1987, however, VLT has evolved into a statewide conservation 
organization and in 1990 moved its headquarters to Montpelier, an 
hour's distance from Woodstock. The National Historical Park came into 
existence soon after, and in the intervening years has built an 
outstanding relationship with the local community. When Woodstock 
conducted a community visioning process several years ago, there was a 
growing public interest in seeing the King Farm make a more active 
contribution to the community and to conservation in general, through 
historic preservation, trails, community gardens, control of invasive 
species, as well as through educational and conservation programs with 
the Vermont Youth Conservation Corps, Student Conservation Association, 
Woodstock Union High School, and others.
    To achieve the full potential of the King Farm as an historic, 
environmental, educational, and community resource, the presence of an 
on-site manager is required. With the Vermont Land Trust now 
headquartered in Montpelier and the National Park staff located 
immediately adjacent to the King Farm, a change in ownership seemed 
almost self-evident. After our initial conversations with the Park 
Service staff and an internal review within NPS, we took our proposal 
to the community of Woodstock. As Exhibit D indicates, we made 
extensive efforts to reach all corners of the community, including 
direct contact with all neighboring landowners, conversations with 
public officials and community leaders, articles in the local 
newspapers, and an open house and a public hearing where all were 
welcome. The response was universally positive.
    We believe that this proposal not only furthers the educational and 
conservation mission of the Marsh-Billings-Rockefeller National 
Historic Park and the Vermont Land Trust, but will honor and fulfill 
the goals and legacy of Francisca King Thomas. This proposal will:

  <bullet> Improve the ability of the National Park Service to serve 
        its host community;
  <bullet> Achieve Francesca King Thomas' objectives more effectively 
        by creating the opportunity for additional robust conservation, 
        education, and working lands uses of the King Farm;
  <bullet> Provide for more rigorous stewardship of historic farmstead 
        buildings of National significance; and
  <bullet> With the continued aid of the Vermont Land Trust, support 
        innovative partnerships between the Park Service and community 
        organizations.

    Thank you again for this opportunity to submit written testimony to 
the Committee about this proposal. I have attached several documents* 
that describe in great detail the historic, cultural, environmental, 
and community attributes of this extraordinary property.
---------------------------------------------------------------------------
    * All documents and exhibits have been retained in subcommittee 
files.
---------------------------------------------------------------------------
            Sincerely,
                                            Gil Livingston,
                                                         President.
                                 ______
                                 
  Statement of Jim Stratton, Alaska Regional Director, National Parks 
                  Conservation Association, on S. 3820
    The National Parks Conservation Association (NPCA) works to 
protect, preserve, and enhance America's national parks for present and 
future generations. On behalf of NPCA's 325,000 members, and especially 
the national parks in Alaska, we appreciate the opportunity to submit 
these comments for the record.
    The National Parks Conservation Association generally supports the 
purpose and basic concept behind S. 3820, a bill to authorize the 
Secretary of the Interior to issue permits for a micro-hydro project in 
the non-wilderness areas within the boundaries of Denali National Park 
and Preserve and to acquire land for Denali National Park and Preserve 
from Doyon Tourism, Inc.
    This bill would help businesses in the Kantishna region of Denali 
National Park & Preserve reduce their dependency on diesel powered 
electrical generation in favor of power produced by micro-hydro sites. 
As such, this switch to renewable hydro energy would also reduce the 
number of trips that fuel trucks would have to make over the park road 
to deliver diesel to power the existing generators. The micro-hydro 
site proposed by Doyon for its Kantishna Roadhouse property would occur 
on a stream that was mined as recently as 1995. This is definitely not 
wilderness.
    This bill would also direct the Park Service and Doyon to enter 
into a land exchange agreement that would bring the land necessary to 
support the micro-hydro site, and other lands adjacent to the existing 
Doyon properties in Kantishna, into Doyon's ownership in exchange for a 
Doyon-owned parcel identified by the Park Service as a priority for 
acquisition and inclusion in the park.
    We do have several changes we would recommend the committee to 
consider:

          1. While there is strong support for this bill, and 
        Congressional authorization is necessary for the Park Service 
        to ultimately issue a permit, the bill as currently written 
        says that a permit will be issued within 180 days. The ultimate 
        decision for this project must be left to the National Park 
        Service after it completes its NEPA review of the potential 
        environmental impacts. The bill should be clear that a NEPA 
        review is necessary. As such, the time limit should be removed, 
        and;
          2.The word ``shall'' on page 3, line 15 should be replaced 
        with the word ``may.'' This gives the Park Service the 
        necessary discretion to complete its environmental review and 
        make an independent determination based on that analysis.

    With these changes, not only is Doyon able to reduce its dependency 
on diesel powered electrical generators, but the public is ensured that 
it is done in the most environmentally friendly way possible.
    Thank you for the opportunity to comment.
                                 ______
                                 
    Statement of Daniel R. Barrone, Chairman, Taos County Board of 
                  Commissioners, Taos, NM, on S. 3822
    Mr. Chairman and members of the Committee: I appreciate the 
opportunity to express my support and the support of the Taos County 
Board of Commissioners for S 3822, the Carson National Forest Boundary 
Adjustment Act of 2010. This legislation, introduced by our New Mexico 
senators, Chairman Jeff Bingaman and Tom Udall, would expand the 
boundaries of the Carson National Forest in Taos County to include the 
nearly 5,000-acre Miranda Canyon property. I am pleased that the Obama 
Administration and the Forest Service have testified in support of this 
legislation during the committee's hearing on the bill on September 29, 
2010.
    If Congress were to pass the bill, the Forest Service would be 
authorized to acquire the Miranda Canyon tract via appropriations from 
the Land and Water Conservation Fund. The landowners and the public in 
Taos County are strongly in favor of such an acquisition for 
conservation purposes. The property has been proposed for development, 
which would significantly impact the recreation, water, scenic and 
wildlife resources that are found on this spectacular tract.
    The Miranda Canyon property is located several miles south of Taos, 
immediately adjacent to the Carson National Forest, and ranges in 
elevation from 7,200 ft. to 10,801 feet--the summit of Picuris Peak. 
The property has various vegetative types from low elevation sagebrush 
and pifion juniper to high elevation mixed conifer forest containing 
large aspen stands. There are also numerous meadows and riparian 
vegetation that provide excellent habitat for wildlife. The protection 
of this land would provide additional recreational opportunities for 
hunting, sightseeing, camping, hiking, interpretation, and horseback 
riding for the public.
    The Miranda Canyon parcel encompasses nearly 5,000 acre within the 
Arroyo Miranda watershed. This private parcel controls roughly half of 
the area within the upper watershed while the other half is already 
owned by the USFS. This watershed is an important recharge zone for the 
underlying aquifer which provides domestic water for Llano Quemado and 
Ranchos de Taos. The 1999 Bauer-Johnson paper from the New Mexico 
Bureau of Geology and Natural Resources clearly defines the complex 
hydrogeology of Miranda Canyon. Below the Canyon is the convergence of 
the four major earthquake faults in New Mexico. These faults, according 
to Bauer-Johnson, could lead to diversion or loss of the aquifers if 
the area was developed and multiple domestic wells were drilled. This 
project eliminates the chance of conversion to other uses and protects 
the watershed's integrity.
    The landscape has numerous ridges and peaks that provide 
breathtaking views of the Rio Grande Gorge to the west and of Wheeler 
Peak, the highest peak in New Mexico, to the north. The property also 
contains historical features such as the Old Spanish Trail, a pack mule 
trail that served as a link between land-locked New Mexico and coastal 
California between 1829 and 1848, when other routes became more 
popular. Recognizing the national significance of this historic trade 
route, Congress designated it the Old Spanish National Historic Trail 
in 2002. Other geological features on the property include a unique 
small volcano and 1.7 billion year old rock outcrops that rival the age 
of rock found at the bottom of the Grand Canyon.
    I want to thank Senators Bingaman and Udall for their work on 
behalf of this important conservation project in Taos County. We have 
an immediate opportunity, working with a willing seller landowner, to 
protect Miranda Canyon for current residents and future generations. 
This legislation is a very important step forward in the protection 
process and I urge its enactment this year.
    Thank you for the opportunity to present this statement in support 
of the expansion of the Carson National Forest.
                                 ______
                                 
 Statement of John L. Nau, III, Chairman, Advisory Council on Historic 
                        Preservation, on S. 3565
    In accordance with Section 106 of the National Historic 
Preservation Act (NI IPA) and its implementing regulations, 
``Protection of Historic Properties'' (36 CFR Part 800), 1 am writing 
to convey to you the final comments of the Advisory Council on Historic 
Preservation (ACHP) on the proposed authorization of the Mohave Valley 
(Tri-State) Shooting Range and land transfer near Boundary Cone Butte, 
Mohave County, Arizona.
Background
    The Bureau of Land Management (BLM) has been consulting with the 
Arizona Game and Fish Department (AGFD), Fort Mojave Indian Tribe, 
Hualapai Indian Tribe, Arizona State Historic Preservation Officer 
(SHPO), ACHP, and interested organizations and individuals on the 
proposed authorization to construct a firearm shooting range on BLM 
land in Mohave County, Arizona. The shooting range would be constructed 
after BLM transfers ownership of the proposed property to AGM. At issue 
arc adverse visual and auditory effects the shooting range would have 
to Boundary Cone Butte, a property determined eligible for listing in 
the National Register of Historic Places, and the related larger valley 
landscape of religious and cultural significance to the Fort Mojave and 
Hualapai tribes. This undertaking has been under consideration for a 
number of years, with the BLM publishing a Notice of Intent to amend 
the Kingman Field Office Resource Management Plan (RMP) in 1999 and 
inviting the ACHP and Arizona SHPO to participate in the Section 106 
consultation regarding this undertaking in 2006.
    The AGFD's original proposal was to utilize the Boundary Cone Road 
location for construction of the shooting range, a site to which the 
Fort Mojave and Hualapai tribes objected. BLM considered 10 parcels on 
its lands as potential alternative locations for the shooting range, 
but did not analyze them because they did not meet AGFD's criteria. As 
a result of a BLM-sponsored Alternative Dispute Resolution (ADR) 
process in 2004-2005, seven additional alternative locations were 
identified, but only one, the Willow Road location, was subject 
to:further analysis by BLM. The tribes also objected to this location. 
The Willow Road location required an easement across tribal land, and 
contained numerous unevaluated archaeological sites, and BLM eliminated 
that alternative as well. Among the alternatives discussed, but not 
analyzed, was a state-owned parcel that met all the criteria, including 
lesser adverse effects, fewer environmental concerns, and proximity to 
the shooting community, because AGFD would be required to pay the 
Arizona State Land Office for the property.
    BLM subsequently determined that further consultation would not be 
productive, and in accordance with 36 CFR Section 800.7(a) terminated 
consultation and requested that the ACHP provide formal comment. In 
developing our comments, on October 21, 2008, I conducted a series of 
meetings with each of the stakeholders in this process, which were very 
helpful in enabling me to better understand the issues and why 
agreement could not be achieved. As part of the ACHP's deliberative 
process, the ACHP also solicited public input through Federal Register 
notice and invitations to known interested parties.
Findings
    Boundary Cone Butte and its environmental setting is of premier 
religious and cultural significance to Indian tribes.--Boundary Cone 
Butte, recognized as eligible for inclusion in the National Register of 
Historic Places, is a property of traditional religious and cultural 
significance to the Fort Mojave Indian Tribe and the Hualapai Indian 
Tribe. There is a basic incompatibility between the land uses of a 
shooting range and an area where tradition cultural use would be 
disrupted by the audible intrusions of repeated gunfire. The 
construction of a shooting range in this location would clearly result 
in disruptions to traditional cultural use of the area and diminish 
elements of the butte's integrity as a historic resource, such as the 
visual setting and feeling of the area. According to the tribes, 
Imlaintaining the sanctity of this property is crucial to the ability 
of tribal religious practitioners to carry on traditional practices and 
to pass these traditions along to younger generations.''\1\. The tribes 
have further argued that ``[t]he noise caused by a shooting range would 
severely disrupt the sanctity of Boundary Cone as well as visually 
alter the landscape and burden the exercise of religious 
practices.''\2\ This linkage between the recognized significance of the 
butte under the National Register criteria and its premier role in the 
traditional practices and values of the tribes is of critical 
importance in meeting the ``take into account'' standard established 
for federal agencies in Section 106 of the NHPA. We question whether 
BLM in its review of this matter has met this standard.
---------------------------------------------------------------------------
    \1\ Letters from Fort Mojave Indian Tribe and Hualapai Indian Tribe 
to ACHP, October 23, 2008.
    \2\ Ibid.
---------------------------------------------------------------------------
    Opportunities were missed for alternative dispute resolution to 
benefit Section 106 consultation.--BLM should be commended for its use 
of ADR as a way of brokering differences on this problematic issue. It 
is regrettable that it was not more successful. We further acknowledge 
BLM's long consultation record under Section 106. It is troubling, 
however, that BLM did not recognize the obvious need to connect 
consultation under Section 106 with its ADR effort, especially since 
the two could have been mutually beneficial. It was not until a year 
following the ADR effort that BLM initiated consultation with the 
Arizona SHPO and the ACHP under Section 106. The nationwide 
Programmatic Agreement that BLM operates under to meet its Section 106 
responsibilities requires that BLM shall request the ACHP's review of 
``highly controversial undertakings.'' Surely having to invoke ADR 
would constitute a clear indication that an undertaking had met this 
test, and ACHP involvement should have been sought.
    Shortcomings in BLM's study of Boundary Cone Butte compromised 
informed decision-making.--Because of religious, cultural, and 
confidentiality considerations, the tribes were reticent about 
providing sensitive information regarding the identification of 
historic properties within the area of potential effects for the 
Boundary Cone Road alternative. While this posed challenges for BLM in 
its identification effort, this could have been overcome had BLM 
undertaken an ethnographic study as the Fort Mojave tribe requested in 
2003 and the ACHP additionally recommended in late 2006. Such a study, 
undertaken by a trained ethnographer and carried out in a sensitive 
manner that provides for any confidentiality concerns that the tribes 
may have, would have allowed BLM to move forward in the Section 106 
process in consultation with the tribes to apply the criteria of 
adverse effect to historic properties with greater authority and 
confidence. This presented another flaw in how BLM chose to meet the 
Section 106 requirements.
    Consideration of alternatives is inadequate.--We do not believe 
that BLM has adequately explored other locations and uses, despite the 
time spent on consultation. Viable alternatives that could have avoided 
impacts to lands of religious and cultural importance to tribes were 
dismissed based primarily on cost considerations, such as the need to 
purchase state or private land, current lack of electricity or road 
access, and need for additional archaeological inventory. While we 
understand the need for cost-effective development, this should not 
come unreasonably at the expense of historic properties.
Recommendations
    In view of the above findings and in consideration of the facts in 
this matter as we understand them, the ACHP offers the following 
recommendations:

          I. BLM should not transfer to the AGFD land for purpose of 
        construction and operation of the Tri-State Shooting Range and 
        associated buffer areas as long as the proposed site for this 
        development is the Boundary Cone Road site. It should assess 
        other possible alternatives outside of the Mohave Valley that 
        have potential to meet the goals of the shooting community and 
        AGFD without impacting the historic property. Only after these 
        alternatives have been exhausted should BLM reassess other 
        possible alternatives that were identified through the ADR 
        process that have potential to meet the AGFD goals, while not 
        doing so at the expense of historic properties. One such 
        alternative might be a partnership that would enable the BLM to 
        transfer land to the state land agency in exchange for making 
        available to the AGFD, without cost, the state lands that have 
        been identified as the most promising site for the shooting 
        range. Another alternative might be the consideration of Site 
        number 1 previously considered under ADR and presently 
        identified by the Fort Mojave and Hualapai tribes as an 
        alternative that might warrant further consideration.
          II. To address the on-going concerns regarding the tribal 
        significance attached to this area, the ACHP recommends that 
        BLM explore with the tribes and other concerned parties its 
        options to begin managing BLM lands within the entire valley in 
        a manner that recognizes the significance of this important 
        historic resource and affords it the kind of consideration it 
        is due as such. These options include considering designation 
        of the area as an Area of Critical Environmental Concern (ACEC) 
        or a National Landscape Conservation Area (NLCS), which may 
        afford additional protection. BLM has indicated its willingness 
        to provide funds for landscape level studies to generate 
        information that will allow future Resource Management Plans 
        (RMP) to ``avoid impacts to significant cultural resources, 
        including areas of traditional cultural importance to Indian 
        tribes.''\3\ BLM should prioritize funding to institute this 
        level of planning for the Mohave Valley to begin to address the 
        landscape that is of clear significance to the tribes. Now that 
        BLM has recognized Boundary Cone Butte as a historic property, 
        it should move forward to restrict uncontrolled shooting on 
        adjacent BLM lands to protect the integrity of this site of 
        traditional religious and cultural importance to the tribes and 
        further diminish audible intrusions into its use by 
        practitioners.

    \3\  BLM's Progress Report on Section 3 of E.O. 13287, September 
2008, p. 11.
---------------------------------------------------------------------------
    In accordance with 36 CFR Section 800.7(c)(4), you must take into 
account these comments of the ACHP, and respond to them, prior to 
reaching a decision on the proposed shooting range. In accordance with 
Section 1 10(1) of the NHPA and the Section 106 implementing 
regulations, this responsibility cannot be delegated. We request a 
response to these comments by December 12, 2008, so that sufficient 
time is available to identify alternative locations that would allow 
for better preservation outcomes for historic properties.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
